 National Science Foundation
  Office of Inspector General
 4201 Wilson Blvd., Suite 1135
                                    National      Office of
      Arlington, VA 22230           Science      Inspector
          703.292.7100
                                    Foundation     General




    HTTP://www.nsf.gov/oig
To report fraud, waste, or abuse,
 call our hotline 1.800.428.2189




                                                        Semiannual
                                                          Report to
                                                          Congress
                                                              March 2008
About The National Science Foundation...


The National Science Foundation (NSF) is charged with supporting and strengthening all
research discplines, and providing leadership across the broad and expanding frontiers of sci-
ence and engineering knowledge. It is governed by the National Science Board which sets
agency policies and provides oversight of its activities.


NSF invests over $5 billion per year in a portfolio of approximately 35,000 research and educa-
tion projects in science and engineering, and is responsible for the establishment of an informa-
tion base for science and engineering appropriate for development of national and international
policy. Over time other responsibilities have been added including fostering and supporting the
development and use of computers and other scientific methods and technologies; providing
Antarctic research, facilities and logistic support; and addressing issues of equal opportunity in
science and engineering.


And The Office of the Inspector General...


NSF’s Office of the Inspector General promotes economy , efficiency, and effectiveness in
administering the Foundation’s programs; detects and prevents fraud, waste, and abuse within
the NSF or by individuals that recieve NSF funding; and identifies and helps to resolve cases of
misconduct in science. The OIG was established in 1989, in compliance with the Inspector Gen-
eral Act of 1978, as amended. Because the Inspector General reports directly to the National
Science Board and Congress, the Office is organizationally independent from the agency.


About the Cover...


Under the Antarctic Ice -- A jellyfish, species Diplulmaris Antarctica, floats with the current just
offshore of McMurdo Station, Ross Island. This species is generally found in Antarctica and the
Antarctic Peninsula near the surface in continental shelf waters. The Antarctic waters are teem-
ing with species of fish and other sea creatures like urchins, brittle stars and sea stars, jellyfish
and sponges, worms and spiders, krill and shrimp, as well as marine mammals and penguins, to
name a few. Credit: Steve Clabuesch, National Science Foundation
                                                                                  Table of Contents

OIG Management Activities ...........................................................................................7


Legal Review....................................................................................................................7


Outreach...........................................................................................................................7


Audits & Reviews .......................................................................................................... 11


Significant Internal Reports ......................................................................................... 11


Significant Grant Audits ............................................................................................... 14


A-133 Audits...................................................................................................................20


Audit Resolution............................................................................................................22


Work in Progress...........................................................................................................25


Investigations ................................................................................................................27


Civil & Criminal Investigations.....................................................................................27


Administrative Investigations ...................................................................................... 31


Statistical Data ..............................................................................................................35


OIG Performance Report.............................................................................................. 47


Appendix ........................................................................................................................60

[Blank Page]
                From the Inspector General
	

This Semiannual Report to Congress highlights the activities of the National
Science Foundation (NSF) Office of Inspector General (OIG) over the six
months ending March 31, 2008. During this period, we issued 14 audit reports
with questioned costs of $840,490. Our investigators closed 30 civil/criminal
cases, 31 administrative cases, and recovered $1,513,135 while making 11
referrals for prosecution. As always, we are grateful to our agency colleagues
for their assistance and cooperation in attaining these results. More about
OIG’s accomplishments over the past year can be found in our annual
performance report on page 47.

Among the significant findings that appear in this report are the results of three
new audits of labor-effort reporting systems at large universities, part of a series
of audits planned to examine this important grant management issue. Our
auditors continue to find that the systems they review lack effective controls for
certifying labor effort and may fail to account for the actual time worked on the
grants. This is a significant cause for concern because in FY 2006, charges to
salaries and wages for NSF grants totaled $62 million. The auditors’ specific
findings and recommendations are presented on pages 15-17. At another
university, our investigators found two unrelated instances of credit card abuse
and worked with the FBI and federal and state prosecutors to indict the two
individuals responsible. In total, the two are alleged to have improperly charged
$489,000, most of it to NSF awards. The facts uncovered by these
investigations are described on pages 27-28.

Lastly, I appreciate the cooperation that the OIG is given by NSF management,
staff and the many awardees that benefit from NSF funding. They too share
the responsibility of safeguarding public resources that are invested in science
and engineering research and education. I would also like to acknowledge the
contributions of eight key members of the National Science Board whose terms
expired in May 2008. I thank those members for their service to the Board and
their support for my office in our efforts to promote efficiency and strengthen the
integrity of NSF programs. The members are: Dr. Barry Barish, Dr. Ray Bowen,
Dr. Kenneth Ford, Dr. Daniel Hastings, Dr. Karl Hess, Dr. Elizabeth Hoffman,
Dr. Douglas Randall, and Dr. Jo Anne Vasquez.




                                                       Christine C. Boesz, Dr.P.H.
                                                                Inspector General
                                                                      March 2008
[Blank Page]
                                                       Report Highlights
•		   An audit of NSF’s FY 2007 financial statements resulted in
      an unqualified opinion but repeated the prior-year significant
      deficiency on contract monitoring and also identified a
      significant deficiency related to property, plant, and equipment.
      Separately, the FY 2007 Management Letter used to communi-
      cate issues of concern arising from the financial statement audit
      identified nine findings. (See pp. 11-13)

•		   A recent audit of NSF’s controls over its eight research center
      programs found that NSF could enhance its management and
      oversight by developing and issuing written policies and estab-
      lishing a forum for its program officers to share best practices.
      The eight center programs, engaged in fields of research such
      as nanoscale technology, engineering, and the science of
      learning, funded 99 individual research centers for a total of
      approximately $250 million in fiscal year 2005. (See p. 13)

•		   Reviews of labor effort reporting systems at three universities
      found that they each lacked effective and timely controls for
      certifying labor effort, resulting in decreased assurance that $62
      million of salary and wages charged to NSF in FY 2006 reason-
      ably reflected actual time worked on NSF sponsored projects.
      (See pp. 15-17)

•		   In two unrelated cases at the same university, an accountant
      and a program coordinator were each indicted for using
      purchase cards (P cards) to pay for personal purchases.
      Combined, the two are alleged to have improperly charged
      $489,000, most of it to NSF awards. (See pp. 27-29)

•		   NSF terminated an education award and debarred the PI for
      making false statements in his proposal claiming the participa-
      tion of a particular collaborator who had declined to be involved.
      The termination of the award enabled NSF to put $1.25 million
      to better use. (See p. 28)

•		   OIG and university investigations concluded that a student,
      who was receiving funds through an NSF award to her advisor,
      fabricated the underlying data for graphs presented to her
      thesis committee at a Washington university. The student was
      found to have improperly used “correction factors” to achieve
      the results she desired in an effort to demonstrate their validity.
      (See p. 33)

•		   The 2007 OIG Performance Report summarizes the progress
      made over the past year in achieving our three goals: 1) to
      promote NSF efficiency and effectiveness; 2) safeguard the
      integrity of NSF programs and resources; and 3) utilize OIG
      resources effectively and efficiently. (See p. 47)                    5
[Blank Page]
                                           OIG Management Activities


Legal Review
Program Fraud Civil Remedies Act of 1986

As we reported in our last Semiannual Report, the 2007 NSF
Reauthorization Act, which passed in August 2007, amended the
Program Fraud Civil Remedies Act (PFCRA) to bring the National
Science Foundation (NSF) within the statute’s coverage. With
this amendment, the agency now has authority to administratively
recover losses resulting from fraud cases under $150,000 when
DOJ declines to prosecute. We understand that NSF is currently
drafting regulations to implement PFCRA and OIG expects that final
regulations will be published by early August. Once implemented,
PFCRA will provide the Foundation with a valuable and important
opportunity to protect appropriated dollars and to ensure such
funds serve their intended purposes.



Outreach
During this semiannual period, we sought to maintain essential
outreach contacts with major institutions, national and international
research organizations, and other federal agencies and their
OIGs. Challenged by budget constraints, we managed to achieve
greater economies in our outreach efforts while making it easier for
the communities we serve to interact with OIG. We updated our
website to include significant outreach presentations, and created
new informational material for distribution throughout NSF and the
research community.

Our efforts to encourage the research community to adopt
compliance-based programs1 at every research institution contin-
ued throughout this semiannual period. We presented at outreach
events attended by university officials, research administrators, PIs,
students, post-doctoral students, and international funding agen-
cies, in an effort to explain the significant value of such programs
and the needless risks that are assumed when universities and
other members of the research community fail to develop and
implement appropriate compliance programs. For this reason,
interest in compliance programs continues to increase throughout
the research community. In addition, the definition of responsible
conduct in research is expanding to include elements of profes-
sional development necessary to produce a well-rounded


1 Compliance programs are a set of policies or actions taken by an institution to enhance
operational integrity and ensure that federal research funds are properly handled.

                                                                                            7

OIG Management




                 professional researcher. These positive developments provide encouragement
                 to those interested in the establishment and maintenance of a research environ-
                 ment where compliance and ethical conduct are the norm.

                 During this semiannual period, an article written by OIG staff members was
                 published in The Journal of Public Inquiry, a publication read widely within the
                 community. The article described the positive impact compliance programs can
                 have on research institutions and organizations. It also highlighted the benefits
                 to the institution of taking the initiative to develop such programs tailored to its
                 particular risks, rather than taking a chance of having a more comprehensive
                 compliance program imposed on it in the aftermath of a civil/criminal investiga-
                 tion.


                 Working with Other Nations

                 The Inspector General continued to participate in international forums ad-
                 dressing the identification, prevention, and handling of instances of research
                 misconduct. Dr. Boesz hosted a meeting of the Global Science Forum (GSF)
                 at the National Science Foundation on December 3 and 4. Ongoing efforts to
                 develop common principles for investigation and resolution of research miscon-
                 duct allegations with international implications remained an important focus of
                 these meetings. Representatives of 18 countries, the European Commission,
                 and the Organization for Economic Cooperation and Development (the GSF’s
                 sponsoring organization) attended the meetings.

                 In addition, OIG staff made presentations to or held discussions with delega-
                 tions from the European Science Foundation, the U.S.-Israeli Bi-National
                 Science Foundation, the Irish Health Research Board, the Korean Board of
                 Audit and Inspection, and the Chinese Ministry of Science and Technology, to
                 provide their expert opinions and personal insights concerning the oversight of
                 scientific research and science funding.


                 Working with the Research Community

                 OIG personnel sought out the most valuable opportunities from among the wide
                 range of workshops, conferences, and other events sponsored by institutions
                 and associations of research and university professionals, such as the Society
                 of Research Administrators, the Rutland Institute for Ethics, and the National
                 Council of University Research Administrators. We also visited with faculty,
                 students, and administrators at eight universities. Through these presentations
                 we sought to educate the community on best practices and to encourage the
                 development of systems and tools to identify, resolve, and prevent the occur-
                 rence of misconduct or mismanagement within the research enterprise. In
                 addition, in recognition of the fact that 50% of all undergraduates attend com-
                 munity colleges, we crafted and provided a presentation directed at community
                 colleges to encourage them to incorporate ethics and compliance training into
                 their curricula.

            8

                                                             OIG Semiannual Report   March 2008




Working with the Federal Community

During this semiannual period, NSF OIG personnel interacted
with their counterparts in the federal community, including federal
agency OIGs, in a number of capacities. We hosted a very
successful Grant Fraud Training Program, in which more than
thirty agencies were represented by over 125 investigators who
attended. Our expertise in the area of investigations of grant
fraud and research misconduct enabled us to continue to make
significant contributions toward federal efforts to limit fraud and
misconduct. We participated in numerous events and initiatives
established to coordinate the efforts of those fighting against grant
fraud and research misconduct, including:

•	   The Grant Fraud Subcommittee of the Department of Justice
     National Procurement Fraud Task Force
•	   The Federal Law Enforcement Training Center                                     Assistant Attorney
•	   The Eastern District of Virginia Regional Procurement Fraud Working             General Alice Fischer
     Group                                                                           addresses the Grant
•	   The PCIE/ECIE Misconduct in Research Working Group, chaired by the              Fraud Training
     NSF IG                                                                          Program sponsored
•	   The Investigations Subcommittee of the PCIE Information Technology              by NSF OIG.
     Committee

In addition, we met with representatives from Office of Management and
Budget to provide comments on best practices for coordinating federal financial
statement audits, and on revisions to OMB Circular 136 Financial Reporting
Requirements and discussed actions NSF has taken in response to Single
Audit (OMB Circular A-133) findings. We also actively participated in the GAO/
President’s Council on Integrity and Efficiency (PCIE) workgroup to update the
Financial Audit Manual and continued to participate in the PCIE Inspections
and Evaluation Committee, the PCIE GPRA Roundtable, the Federal Audit
Executive Council, the Single Audit Roundtable, and the Financial Statement
Audit Network.


Working with NSF

A surprising finding in the 2007 National Government Ethics Survey reported
that only two percent of federal government employees made use of whistle-
blower hotlines. In order to increase awareness of our hotline within NSF, we
created an electronic advertisement to provide information to potential whistle-
blowers. Shown in all common areas throughout the agency on a repeating
basis, the advertisement highlights the value and availability of our hotline and
reminds employees of the confidentiality and anonymity it provides.




                                                                                     9

OIG Management


                  Through regular presentations to the National Science Board and senior NSF
                  officials, OIG keeps the leadership of NSF informed of audit and investigative
                  matters of importance for the oversight of agency operations. In addition,
                  we have provided input to NSF on important new initiatives. For example, in
                  January 2008 audit staff met with the coordinator of NSF’s draft Human Capital
                  Strategic Plan to discuss NSF’s human capital goals and its workforce and
                  succession plans. We have also continued our extensive liaison outreach to
                  NSF staff and programs.

                  We continue to participate in NSF’s Regional Grant Conferences and its
                  Program Management Seminars, which provide new NSF staff with detailed
                  information about the Foundation and its activities. The Seminars provide OIG
                  staff an opportunity to develop personal and professional relationships with
                  their NSF colleagues, while educating them about the mission and responsibili-
                  ties of NSF OIG. Our staff serve on various NSF committees such as the NSF
                  Student Loan Repayment Working Group, and remain active in NSF-sponsored
                  activities.

                  We recently began participating in NSF’s New Employee Orientation Program,
                  presenting to every “class” of new employees coming into NSF. These twice-
                  monthly orientations provide us an opportunity to introduce employees to the
                  OIG, to communicate to them how we can work together to enhance NSF
                  programs and operations, and to ensure that they understand the channels
                  through which NSF employees can bring matters to our attention. We thank
                  NSF’s Human Resources Office for the opportunity to participate, and look
                  forward to a fruitful relationship between our offices.




            10

                                                     Audits & Reviews

In this semiannual period we completed the required audit of NSF’s
fiscal year 2007 financial statements, an audit of NSF’s oversight of
its eight research center programs, and an assessment of certain
National Science Board (NSB) policies and procedures governing
its ad hoc business activities. In addition to these internal audits
of NSF, we completed seven audits on NSF’s awardee institutions,
including reviews of purchase cards, labor effort reporting and other
grants management procedures at a federally funded research
and development center, three universities and three non-profit
organizations. We also reviewed 97 annual single audits of NSF
awardees that reported a total of 150 findings. Finally, in the last six
months we worked with NSF to resolve findings and recommenda-
tions in five audits completed in prior periods. Work continues on
audits of the adequacy of the information NSF collects from its
research centers, the sufficiency of its cooperative agreements for
large facility projects, its handling of personally identifiable informa-
tion, and its audit resolution policies and practices.



Significant Internal Reports

FY 2007 Independent Auditors Issue Unqualified
Opinion, Cite Need for Improved Contract
Oversight and Accounting for Property
During this reporting period we completed an audit of NSF’s Fiscal
Year (FY 2007) financial statements, as required by the Chief
Financial Officers Act. Under a contract with OIG, Clifton Gunder-
son LLP issued an unqualified opinion but repeated the prior-year
significant deficiency on contract monitoring and also identified a
significant deficiency related to property, plant, and equipment.

In FY 2007, NSF expended approximately $551 million on active
contracts and interagency agreements. Of this amount, $212
million was disbursed through advance payment programs with
three contractors, including $148 million for logistical support of
the U.S. Antarctic Program. The auditors reported that NSF’s
procedures were not adequate to ensure that contractors used NSF
funds consistent with the objectives of the contract. The auditors           HIGHLIGHTS
recommended that NSF: (1) expand the contract oversight program
                                                                             Significant Internal
to include comprehensive post-award monitoring policies and
                                                                              Reports                 11
training to ensure that the requirements of the contracts are met;           Significant Grant Audits 14
(2) implement guidance to ensure that a thorough review of the               A-133 Audits             20
contract folder is performed and that documentation is complete; (3)         Audit Resolution         22
continue to review the contractors’ Quarterly Expenditure Reports            Work in Progress         25
supplemented with additional testing on higher risk contracts to
                                                                            11
Audits & Reviews


                   identify unreasonable and unrelated costs; (4) resolve the outstanding OIG
                   audits of NSF’s largest contractor for FY 2000-2004; (5) implement a system to
                   track the status of invoices from receipt to payment processing; and (6) provide
                   training to all employees responsible for the acceptance of services and/or
                   goods.

                   NSF relied extensively on its contractor to manage and account for the approxi-
                   mately $225 million of real property needed to carry out research activities in
                   the Antarctic. The contractor and NSF used numerous, nonintegrated systems
                   and manual processes to account for property. In addition, the auditors encoun-
                   tered difficulties in obtaining supporting documentation for property transactions
                   from the contractor; identified errors in testing; and found NSF’s accounting for
                   freight costs to be complex and at risk for error because of its manual nature.
                   The auditors recommended that NSF: (1) continue to validate a sample of asset
                   acquisitions and disposals each year; (2) periodically confirm with the contractor
                   the status and availability for use of property under construction; (3) develop
                   a plan to implement an integrated entity-wide property management system
                   that would fully automate the recording, tracking, and analysis of all property
                   accounting processes; (4) consider incorporating a requirement in the upcoming
                   United States Antarctic Program (USAP) contract solicitation for the contractor
                   to provide an accounting system for property, plant, and equipment in the
                   Antarctic to support the entity-wide system; and (5) implement procedures to
                   streamline the freight cost calculation and improve the accuracy and timeliness
                   of reporting transportation costs to the Antarctic.

                   In February, NSF submitted its proposed action plans to address the recom-
                   mendations. The proposed corrective actions were reasonable and generally
                   responsive. NSF proposed an alternative approach to resolve the recom-
                   mendation on implementing a system to track the status of contractor invoices.
                   However, NSF did not address developing a plan to implement an integrated
                   property management system or incorporating a requirement in the upcoming
                   USAP solicitation for the contractor to provide an accounting system for USAP
                   property. Rather, NSF proposed to document and test system controls before
                   determining future actions. The OIG and Clifton Gunderson will continue work-
                   ing with NSF management to ensure that these issues are resolved.

                   Management Letter Cites Need for Improved Post-Award,
                   Contract Monitoring, and Property Accounting Practices
                   The FY 2007 Management Letter identified nine findings, some of which
                   incorporated elements of prior years’ findings related to NSF’s operations and
                   financial reporting controls.2 The Management Letter reported continuing
                   weaknesses in NSF’s grants processing and documentation. For example,
                   the auditors found late grantee annual project reports, late final project reports,
                   incomplete documentation in NSF’s monitoring files to support the results of its
                   oversight reviews, and lack of follow-up on corrective actions for desk review
                   findings. Once again, the auditors recommended that NSF revise its Site Visit
                   Review Guide to provide specific guidance for documenting the review steps,
                   the closure of site visit recommendations, and any delinquency letters to the
                   2 Auditors issue a management letter to separately communicate findings arising from the financial statement
                   audit that are not reported in the audit report but are still important to ensuring a sound overall internal control
                   structure and require management’s attention.


             12

                                                              OIG Semiannual Report   March 2008


grantees. The auditors also recommended that NSF issue site visit reports and
letters timely and revise the desk review protocol to establish a deadline for
follow-up on corrective actions with grantees.

The auditors reported a new finding related to reporting property, plant, and
equipment. A physical inventory of USAP real property and construction in
process and a reconciliation of the physical inventory listing to the general
ledger were not performed, which could allow errors in property accounts to
remain undetected. The auditors recommended that NSF review real property
assets once a year to identify assets that are permanently impaired, prepare a
journal entry to write-off such assets, perform an annual physical inventory of
real property, and reconcile the property inventory listing to the general ledger.

NSF management generally concurred with a number of the recommendations
in the Management Letter. In some instances NSF is developing alternative
approaches to resolve the findings. For those recommendations that NSF did
not agree with, the OIG and Clifton Gunderson will continue to work with NSF
management to either reach resolution or to assess whether any further recom-
mendations are necessary. The FY 2008 financial statement audit will evaluate
NSF’s actions in response to the findings and recommendations to determine
whether these issues have been adequately addressed.

Policy for Overseeing Research Center Programs Should
Be Formalized
A recent audit of NSF’s controls over its eight research center programs found
that NSF could enhance its management and oversight by developing and
issuing written policies and establishing a forum for its program officers to share
best practices. The eight center programs fund individual research centers in
fields such as nanoscale technology, engineering, and the science of learning.
These eight research center programs funded 99 individual research centers for
a total of approximately $250 million in fiscal year 2005.

The audit found that the NSB and NSF senior management had issued a set
of principles and general guidance for center programs that provided a broad
framework to ensure effective management, oversight, and accountability.
Nevertheless, the eight center programs did not consistently follow this guid-
ance, leading to differences among the programs in important areas such as
strategic planning, reporting requirements, funding levels, and duration of NSF
support. In addition, NSF had not incorporated the guidance into its written
agency policies and procedures for NSF center program managers. Without
written policies, NSF is at risk of not having effective management and oversight
practices to ensure the center programs meet their goals.

The audit recommended that NSF develop and issue a written policy for its
center programs that includes the NSB’s and senior management’s framework
of principles and guidance and explains NSF’s expectations of how center
programs are to use this framework. The audit also recommended that NSF
reinstitute a forum through which center program managers can identify and
exchange promising practices as well as discuss common issues. NSF agreed
with our findings and recommendations

                                                                                      13

     Audits & Reviews


                        The NSB Clarifies its Processes and Procedures for
                        Conducting Ad Hoc Business Activities
                        At the request of the National Science Board Chairman, we performed an
                        assessment of the policies, procedures and guidance governing the circum-
                        stances surrounding the June 2007 signing of a ceremonial Joint Statement
                        of Understanding between the NSB Chairman and the Governor of Hawaii
                        expressing mutual support for Science, Technology, Education and Mathematics
                        (STEM) education. We found that the NSB did not violate any existing policies,
                        procedures, or guidance for conflict of interest, open meetings, or internal NSB
                        practices. However, we did recommend actions the NSB could take to improve
                        its policies and procedures, including developing a process for how it conducts
                        impromptu business outside of its regularly scheduled meetings, and defining
                        the roles and responsibilities of the NSB Chairman. The NSB has taken steps
                        to implement all of our recommendations.



                        Significant Grant Audits

                        Federally Funded Research Center Needs to Improve
                        Controls over Purchase Card and Timekeeping Systems
                                           Concerned that serious internal control deficiencies may exist
                                           in the University Corporation for Atmospheric Research’s
                                           (UCAR’s) purchase card program after fraudulent use was
                                           investigated, the OIG audited UCAR’s purchasing and payroll
                                           systems. UCAR, a consortium of over 100 university mem-
                                           bers and affiliates, receives over 90 percent of its funding
                                           from NSF and other federal agencies.

                                           Our audit found that while the internal control structure for
                                           UCAR’s purchase card program contained some basic
The Fleischmann                            elements of an effective internal control system, it was not
Building, designed      always implemented or effective in preventing or detecting fraud. Although
by I.M. Pei, is the     UCAR has revised its purchase card policy and addressed many of the signifi-
headquarters of the     cant deficiencies that existed at the time of the fraud, further improvements are
University Corpora-     needed to ensure that the $5 million of goods and services purchased annually
tion for Atmospheric    with UCAR purchase cards are for authorized business purposes. We recom-
Research (UCAR).
                        mended that UCAR 1) develop policies and assign responsibilities for imple-
Copyright: UCAR
                        menting a refresher training plan for using purchase cards, 2) conduct random
                        checks to assess whether purchases were proper and approved by cardholders’
                        supervisors, 3) periodically perform risk assessments to identify potential risks
                        in the purchase card program, and 4) perform inventories on purchased items
                        costing less than $5,000, which are susceptible to theft.

                        Furthermore, at the time the fraud occurred, UCAR did not have an internal
                        auditor on staff, a position that was left vacant for a five-year period. An internal
                        auditor may have identified the need for improved controls over purchase cards
                        in time to prevent or reduce UCAR’s vulnerability to fraud. UCAR has recently
                        hired an internal auditor.


                   14
                                                            OIG Semiannual Report    March 2008


We also evaluated whether UCAR salaries and wages were properly and ac-
curately charged to federal awards. The audit found that UCAR employees 1)
were not recording all of their worked hours, 2) charged budgeted rather than
actual hours, 3) earned and used unrecorded compensatory time (although
UCAR does not officially allow compensatory time), and 4) inaccurately re-
corded their time as worked when they were on leave. Furthermore, UCAR did
not have detailed written justification to support over 80 percent of the sampled
labor costs UCAR transferred between awards. Without a reliable basis of
support, UCAR’s $58 million of labor costs charged to NSF and other federal
agency awards are at risk of not being accurately allocated. UCAR needs to
develop a timekeeping system to accommodate all hours worked by salaried
employees, provide its employees specific guidance on timecard completion,
and provide more oversight of accounting for leave and transferring of labor
costs between awards.

UCAR agreed with most of the audit findings and recommendations but did not
believe it would be cost effective to conduct periodic inventories of items pur-
chased under $5,000, which are vulnerable to theft. We affirmed our position
that conducting inventories, even if at a minimal level, is necessary to prevent
and deter instances of theft.

Processes for Certifying Labor Charges on NSF Awards
Should be Strengthened

As noted in previous semiannual reports,3 the OIG is performing a series
of reviews at NSF’s top-funded universities to assess the adequacy of
accounting and reporting processes for labor costs charged to federal
awards. During this reporting period, reviews at three universities found
the labor effort reporting systems at each lacked effective and timely
controls for certifying labor effort, resulting in decreased assurance that
$62 million of salary and wages charged to NSF in FY 2006 reasonably
reflected actual time worked on NSF sponsored projects. A similar con-
cern exists for the salary portion of the $580 million of costs charged to
the universities’ other federal grants.

University of California, Berkeley Needs to Ensure Reasonableness
of NSF Labor Charges

The University of California, Berkeley’s (UCB’s) labor effort certifications did
not always ensure that salary and wages charged to NSF awards reasonably
reflected actual work performed on sponsored projects. Specifically, we found
that for 8 of 30 employees tested, representing 14 percent of the NSF salary
charges reviewed, UCB did not have appointment letters documenting employee
institutional base salary rates, improperly charged employee work activities to
NSF grants, and/or did not have “suitable means of verification” that the work ef-
fort charged was actually performed. Furthermore, 44 of 56 labor effort reports



3 March 2007 Semiannual Report, p. 18.



                                                                                     15

Audits & Reviews


                   reviewed (representing 61 percent of the NSF salary charges reviewed)
                   were either certified after the university-established due date or had inadequate
                   documentation to determine the certified date.

                   As a result, we identified $103,637 of salary costs charged to NSF (12 percent)
                   that lacked adequate documentation to validate the reliability of actual employee
                   labor effort. Furthermore, UCB inappropriately charged NSF $15,543 (2 per-
                   cent) in salaries for employee activities not directly benefiting NSF-sponsored
                   projects. The systemic nature of the control weaknesses raises concerns about
                   the reasonableness of the remaining $25 million in annual labor costs charged
                   to NSF projects.

                   Given the University’s decentralized organizational structure for grants manage-
                   ment, UCB needs to establish detailed written guidance for all labor effort
                   processes to ensure full compliance with federal requirements, provide training
                   to all staff involved in the labor effort certification process, and monitor depart-
                   ment-level compliance with established labor effort policies and procedures.
                   To comply with federal standards, UCB also needs to perform an independent
                   internal evaluation of its labor effort reporting system to ensure its effectiveness.
                   In general, the University agreed to implement the audit recommendations and
                   believed its new web-based Effort Reporting System will address many of the
                   cited control weaknesses.

                   University of Illinois at Urbana-Champaign Should Utilize Employee
                   Workload Information During Labor Effort Certification Process

                   An OIG review of the University of Illinois, Urbana-Champaign (UI) found that
                   UI needs to improve the reliability of after-the-fact confirmation of actual salary
                   charges to federal awards. While the University’s labor distribution system ac-
                   counts for 100 percent of each employee’s work activities, UI does not provide
                   such information to certifying officials during the certification process to ensure
                   that labor costs charged to NSF grants are reasonable and equitable relative
                   to the employee’s other sponsored and non-sponsored activities. In addition,
                   certifying officials approved 49 of 77 labor confirmation reports, representing
                   61 percent of the NSF salary charges reviewed, after the University-established
                   due date. As such, there is an increased risk that a portion of the $29 million of
                   annual salary costs could be misallocated to NSF projects, as certifying officials
                   do not have complete or timely supporting documentation.

                   Although employee workload information was available, the university did not
                   believe that certifying officials needed such information to correctly certify the
                   reasonableness of direct labor charges to NSF-sponsored projects and there-
                   fore did not have procedures requiring its distribution or use. In addition, UI
                   did not have written policies or procedures regarding timely completion of labor
                   confirmation reports and had not assigned clear accountability to ensure reports
                   were timely reviewed and certified. Further, the University had not performed
                   the federally-required independent internal evaluation of its labor effort reporting
                   system. We made recommendations to improve the effectiveness and timeli-
                   ness of UI’s labor confirmation process, which the University generally agreed
                   to implement. UI also noted in its response that it is currently developing a new
                   web-based electronic labor confirmation system.


             16

                                                             OIG Semiannual Report    March 2008


Significant Changes in Employee Salary Distributions to NSF
Awards Require Timely Recording at University of Utah

The University of Utah (Utah) needs to enhance its written policies and
procedures to provide clear and comprehensive guidance for a labor effort
reporting system that is fully compliant with federal regulations. Our review of
30 employees disclosed that, lacking clear guidance, the University had certified
51 percent of its salary charges to NSF late; had not appropriately recorded
significant changes in estimated labor causing a redistribution of 25 percent of
actual salary charges allocated to NSF projects; and certified two percent of
the salaries without “suitable means of verification” to validate the actual labor
effort expended. Without timely or appropriate controls for certifying labor effort
reports, NSF has less assurance that the $8 million of annual salary and wages
reasonably reflect actual hours worked on NSF sponsored agreements.

These weaknesses occurred because Utah had not updated its labor effort
procedures in recent years to establish clear, concise, and well-documented
guidance to ensure full compliance with federal requirements. Also, the Univer-
sity had not performed the required independent internal evaluation to ensure
that the labor effort reporting system was effective, forfeiting an opportunity to
identify and address needed improvements. Utah generally agreed with all the
audit recommendations, agreeing to make changes to its policy and procedures
to improve its internal control structure for administering and managing its labor
effort reporting system.

Audits of Three Non-Profits Find $808,383 Questioned
Costs and Non-Compliance with Licensing,
Appropriations, and Accounting Requirements
During this semiannual period, auditors reported internal control weaknesses at
three non-profit organizations. Among their findings, they identified $808,383
of questioned costs and specific instances of non-compliance with federal
appropriations law, a Canadian licensing requirement, and federal accounting
regulations. In each case, we recommended that the grantee institute policies
and procedures to strengthen its internal controls and ensure future compliance
with applicable requirements.

Grantee Claims $775,939 in Advance of Incurring
Expenses to Avoid Losing Funds Set to Expire
An audit of WGBH Foundation, a non-profit television production organization
questioned $808,383 of the approximately $9.4 million in total costs claimed
on five NSF awards. WGBH did not comply with either NSF or its own policies
when it claimed costs on one award that it had not yet incurred. WGBH claimed
$775,939 for future employment and rental contract costs that, while allocable
to and in support of the NSF project, were not valid for the period in which they
were charged. Further, the NSF appropriation supporting the grants expired
prior to WGBH receiving and paying for the contracted services. Therefore,
WGBH claimed costs that, under federal law, were no longer available to NSF
for use in supporting the WGBH grants. WGBH claimed these costs in advance

                                                                                      17

    Audits & Reviews


                       to prevent losing access to these expiring funds. Auditors also questioned a
                       total of $25,707 in salaries, wages, fringe benefits, other direct costs and indirect
                       costs that did not relate to or benefit the NSF awards and $6,737 in travel, other
                       direct costs and indirect costs that did not have adequate supporting documen-
                       tation.

                       In addition, the auditors found that WGBH did not have controls in place to
                       ensure that 1) proper documentation was maintained to support all award
                       charges; 2) charges were recorded accurately on all NSF awards; 3) service
                       center charges were reviewed to ensure actual costs were charged; or 4) sub-
                       award expenditures claimed in foreign currency and paid for in U.S. dollars were
                       monitored and reconciled.

                       WGBH believes that it had NSF’s consent in claiming the $775,939 of future
                       costs and therefore disagreed with these questioned costs. However, it
                       reported instituting procedures for annual reviews of service center charges and
                       hiring a new accounting manager to better ensure future compliance with grant
                       requirements.

                                                   SRI Jeopardizes Radar Project by
                                                   Failing to Timely Renew Licenses and
                                                   File Complete Reports with Canadian
                                                   Authorities
                                                   A financial audit of $30 million of costs claimed on an
                                                   NSF cooperative agreement with SRI International,
                                                   a non-profit research institute, to design, construct,
                                                   and deploy the Advanced Modular Incoherent Scat-
                                                   ter Radar (AMISR), found that the costs claimed
                                                   were allowable and conformed with federal and
                                                   award requirements. However, SRI had not request-
The EPCO building at                               ed and/or maintained all annual licensing renewals
Resolute Bay Obser-    required by Canadian authorities to conduct scientific research activities at the
vatory is located at   Resolute Bay Observatory, on a timely basis. In addition, SRI did not keep
Cornwallis Island in   Canadian authorities fully apprised of the scientific research activities performed
the Canadian Arctic.   on the AMISR project through its annual license renewal reporting process, or
Credit: SRI Intl.      obtain NSF review and approval of all agreements with the Canadian authorities
                       as required by its agreement.

                       SRI’s lack of a written policy and procedure for obtaining license renewals and
                       its misunderstanding of the license renewal process and requirements contrib-
                       uted to SRI’s noncompliance with the requirement to maintain timely license
                       renewals. Lacking a proper license due to untimely renewals, there were
                       periods of time when SRI did not have permission from the Canadian authorities
                       to conduct any scientific research at its observatory, including activities for the
                       AMISR project, because they were not reported to the Canadian authorities in
                       the annual report. As a result, SRI and NSF run the risk of poor government re-
                       lations with Canadian authorities and the local community of Resolute Bay, loss
                       of property rights to the AMISR project, project delays, and increased project
                       costs.

                       We recommended that SRI establish and implement written license renewal
                 18
                                                              OIG Semiannual Report    March 2008


policies and procedures, obtain and maintain the required international Scientific
Research License renewals needed for all NSF projects, and coordinate the
license application process with NSF as required in the award agreement. SRI
agreed with all our recommendations.

Non-Profit’s Accounting System Fails to Record Actual
Indirect Costs but Most Award Records Are Accurate

OIG conducted two reviews of the Bermuda Institute of Ocean Sciences’s
(BIOS): an accounting system review, and an audit of 4 awards. BIOS is a non-
profit organization providing ship operations and equipment for two research
vessels and Atlantic Ocean current studies.

In the accounting system review, auditors found that BIOS did not comply with
a federal requirement to use actual indirect cost rates to close out all of its
awards in its account records, rather than budgeted indirect rates. While NSF
grant policy limits BIOS to recovering indirect costs at the award budget’s lower
proposed rates, it is important that BIOS capture the full costs of its research
programs in its accounting records in order to recognize the need to secure
other sources of funding for costs not reimbursed by NSF. The under-recovery
of indirect expenses, coupled with costs incurred for an expanded research
program, could impact BIOS’s ability to operate without additional funding, cost
reductions, or increased revenues. In light of the expansion of research efforts,
we recommended that NSF ensure that: 1) BIOS records actual indirect costs in
its accounting records, 2) BIOS’s financial condition is monitored, and 3) BIOS
makes any necessary adjustments to its program expectations and funding.
BIOS explained that it correctly billed NSF using its lower proposed indirect cost
rates.
A second audit was performed to examine the $9.2 million of costs BIOS
claimed on four NSF awards to provide equipment and ship operations for the
Weatherbird II, a research ship which was subsequently sold; and the Atlantic
Explorer, a newly-acquired research vessel. Only $253 of unallowable costs
were found. Auditors were able to verify that costs charged for fuel and a
reserve account for ship rehabilitation costs were accurate; that NSF was not
charged for costs for the Weatherbird II while it was for sale; and that allocations
of costs charged for “at sea” versus “at dock” ship time were accurate.




                                                                                       19

Audits & Reviews


                   A-133 Audits

                   Auditors Report Qualified or Adverse Opinions on 26 of 97
                   Single Audits
                   OMB Circular A-133 provides audit requirements for state and local govern-
                   ments, colleges and universities, and non-profit organizations receiving federal
                   awards. Under this Circular, covered entities that expend $500,000 or more
                   a year in federal awards are required to obtain an annual organization-wide
                   audit that includes the entity’s financial statements and compliance with federal
                   award requirements. Non-federal auditors, such as public accounting firms and
                   state auditors, conduct these single audits. The OIG reviews the resulting audit
                   reports for findings and questioned costs related to NSF awards, and to ensure
                   that the reports comply with the requirements of OMB Circular A-133.

                   The 97 audit reports reviewed this period, covering NSF expenditures of more
                   than $3.1 billion, identified 85 instances where awardees failed to comply with
                   federal requirements and 42 instances where weaknesses in internal controls
                   could lead to future violations. In particular, the auditors issued qualified or
                   adverse opinions on 26 of the 97 awardees’ compliance with federal grant
                   requirements, on their financial statements, or on both. Further, 23 instances of
                   non-compliance with federal requirements resulted in $6.4 million in questioned
                   award costs and $64,730 cost-sharing shortfalls on NSF awards. As detailed in
                   the table below, the most common violations were related to financial and award
                   management and salary/wages.


                                      Findings Related to NSF Awards
                        Category of Finding                           Type of Finding
                                                    Compliance Internal Controls Monetary Total
                   Financial and Award
                   Management                       37            32                 4          73
                    Salary/Wages                    12            4                  9          25
                    Fringe Benefits                 1             1                             2
                    Subawards                       9                                1          10
                    Procurement System              7                                2          9
                    Equipment                       7                                1          8
                    Cost-Sharing                    1                                1          2
                    Indirect Costs                  5             3                  1          9
                    Property Management System                    1                             1
                    Other Direct Costs              2                                3          5
                    Travel                          2             1                             3
                    Participant Support Costs       1                                1          2
                    Interest Earned                 1                                           1
                    TOTAL                           85            42                 23         150


             20

                                                                                 OIG Semiannual Report        March 2008


We also examined 53 management letters accompanying the A-133 audit
reports. Auditors use these letters to identify internal control deficiencies that
are not significant enough to include in the audit report, but which could become
more serious over time if not addressed. The letters disclosed a total of 93
deficiencies that could affect NSF awards in areas such as tracking, managing,
and accounting for NSF costs and segregation of duties.

Timeliness and Quality Deficiencies Found in 76 Percent
of A-133 Audit Reports
The audit findings contained in A-133 reports help to identify potential risks to
NSF awards and are useful to both NSF and the OIG in planning site visits,
post-award monitoring, and future audits. Because of the importance of A-133
reports to the process of overseeing awardees, the OIG returns reports that are
deemed inadequate to the awardees to work with the audit firms to take correc-
tive action.

Of the 46 audit reports we reviewed in which NSF was the cognizant or
oversight agency for audit,4 35 (76 percent) did not fully meet federal report-
ing requirements. For example, we found that 22 reports (48 percent) were
submitted late or the audit reporting package was incomplete. Also, for 20
reports (44 percent), the Schedule of Expenditures of Federal Awards did not
provide sufficient information to allow for identification of awards received from
non-federal “pass-through” entities, and another 8 reports (17 percent) either did
not include a corrective action plan or the plan was incomplete to address the
audit findings. Seven reports (15 percent) did not adequately identify the federal
award to which the findings applied, the criteria or regulatory requirement upon
which the findings were based, and/or the cause and effect of the findings.

The OIG identified each of the potential errors and contacted the auditors and
awardees, as appropriate, for explanations. In most cases, the auditors and
awardees either provided adequate explanations or additional information to
demonstrate compliance with the Circular, or the error did not affect the results
of the audit. However, we rejected three reports due to material misstatements
and/or significant non-compliance with federal reporting requirements. We
issued a letter to each auditor and awardee informing them of the results of our
review and the specific issues on which to work during future audits to improve
the quality and reliability of the report.

Public Accounting Firm Responds to Deficiencies
Identified in Quality Control Review
Last year, we reported on our Quality Control Review of an A-133 audit per-
formed at the Barrow Arctic Science Consortium5 (the Consortium). Our review
found that the auditor did not adequately assess the risks at the Consortium
related to federal grant compliance requirements and did not conduct adequate
4 The “cognizant or oversight agency for audit” is defined as the federal agency which provided the largest
amount of direct funding to an auditee. On a 5-year cycle, OMB assigns a cognizant agency for audit to
auditees who expend $50 million or more in federal funds in a year. On an annual basis, OMB assigns an
oversight agency for audit to auditees who expend less than $50 million in federal funds in a year.
5 September 2007 Semiannual Report, p. 18.


                                                                                                              21

Audits & Reviews


                   testing of controls over federal grant compliance requirements. As a result, we
                   were unable to determine whether the auditor identified all instances of material
                   non-compliance with federal grant compliance requirements. Pursuant to the
                   review recommendations, the auditor obtained additional training on the plan-
                   ning and performance of A-133 audits, revised its procedures for planning and
                   performing A-133 audits, and conducted additional audit testing on the Consor-
                   tium’s procurement of certain capital assets and its safeguarding of equipment
                   purchased with federal funds.



                   Audit Resolution

                   NSF Makes Citations of Journal Articles Resulting from
                   NSF-Funded Research Available to the Public
                   In 2006, we issued two audit reports6 on NSF’s policies and practices for
                   disseminating the results of the research it funds. These reports noted that,
                   through required annual and final project reports, NSF collects a wealth of
                   information about the research activities it funds. This information includes
                   citations of published journal articles that resulted from the NSF-funded
                   research. However, at the time of the audits, NSF only made abstracts of
                   proposed research it funded available on its public website. We issued a series
                   of recommendations to encourage NSF to also disseminate the research results
                   of the projects it funds, thereby increasing the accountability and transparency
                   of its research enterprise.

                   During this semiannual reporting period, NSF implemented the last of the
                   recommendations from these reports. In contrast to its previous approach,
                   NSF’s public website now contains citations of the journal articles resulting from
                   NSF-funded research, along with the abstracts of the proposed research. By
                   December 2007, over 16,000 publication citations had been added, and this
                   number will continue to grow as NSF receives more annual and final project
                   reports from its principal investigators. In its 2007 E-Government Report,7 NSF
                   noted that providing journal citations helps “…NSF to better demonstrate the
                   linkage between funded research and impact to the American public.”

                   NSF Allows $21.3 Million of Questioned Costs Associated
                   with Polar Support Contractor
                   NSF decided to allow $21.3 million or 38 percent of costs questioned and
                   reported in a series of audits of Raytheon Polar Services Company’s (RPSC)
                   financial records and its compliance with its Cost Accounting Standards (CAS)
                   disclosure statement. Auditors questioned about $56 million of claimed costs
                   for the five-year period 2000-2004 and identified $26.6 million of potential
                   additional contract costs for years 2005-2010. These audits cited RPSC’s
                   parent company, Raytheon Technical Services Company (RTSC), for failing
                   to comply with its federally disclosed cost accounting practices in its CAS
                   6 Audit of NSF’s Policies on Public Access to the Results of NSF-Funded Research, NSF OIG, Report No.
                   OIG 06-2-004, February 16, 2006; and Audit of Interest in NSF Providing More Research Results, NSF OIG,
                   Report No. 06-2-013, September 26, 2006.
                   7 National Science Foundation, “2007 E-Government Report,” September 21, 2007.


             22

                                                              OIG Semiannual Report    March 2008


disclosure statement. As a result, the Department of Defense (DoD), which is
responsible for overseeing RTSC’s compliance with its accounting disclosure
statement, cited RTSC with a final determination of noncompliance for 2000-
2002 and an initial determination of noncompliance for 2003-2004. However, as
reported in our last Semiannual Report,8 the DoD contracting officer responsible
for Raytheon withdrew his determinations of noncompliance as it affects $21.3
million of questioned costs and the $26.6 million of projected increased costs for
the Centennial, Colorado RPSC office operations. The NSF contracting officer
concurred with DoD’s change in position and in turn, proposed to allow the
associated $21.3 million of costs questioned by the auditors. As a corollary, the
$26.6 million of projected additional costs would also be considered allowable.

We reviewed documentation provided by DoD and NSF supporting their action,
including a legal opinion provided by DoD supporting the reversal of its noncom-
pliance determinations and found that NSF’s management and administration of
its contract with RPSC limited the government’s ability to recover the questioned
local overhead costs. To prevent the recurrence of these problems in NSF’s
next polar services contract, we made a number of recommendations to NSF to
clarify in its upcoming solicitation its expectations with respect to local overhead
costs and to require the next contractor to maintain accurate disclosure state-
ments and comply with its disclosed accounting practices.

Of the remaining $34.7 million of questioned costs, NSF has proposed the
recovery of $1.3 million or 17 percent of the $7.6 million in questioned direct
costs. NSF did not sustain $5.3 million because RPSC was subsequently able
to support these costs. Efforts to resolve the remaining $1 million of questioned
direct and fringe benefit costs, $12.2 million in questioned over-ceiling indirect
costs, and $14.9 million in questioned corporate and RTSC management costs
are continuing.

In addition, many significant internal control weaknesses remain unresolved,
including: billings to NSF that could not be reconciled with RPSC’s accounting
records; RPSC’s inability to maintain adequate receipts and records for costs
incurred by its New Zealand subsidiary; and RPSC’s lax oversight of AGUNSA,
a large foreign subcontractor, where a fraud involving NSF funds was discov-
ered.9 We will continue to monitor NSF’s and RPSC’s progress towards resolu-
tion of these control deficiencies in the next semiannual period. In addition, we
plan to monitor NSF’s efforts to develop a solicitation and recompete its next
polar services contract and provide audit assistance and technical expertise as
appropriate to support NSF’s procurement process.

$10,317 in Questioned Costs Sustained, and
Recommended Policies Established at the University of
Puerto Rico
In our March 2007 Semiannual Report10 we reported that an audit of two NSF
awards to the University of Puerto Rico – Central Administration (UPR) with
$8.8 million of claimed NSF funds found significant deficiencies in the

8 September 2007 Semiannual Report, pp 21-22.
9 March 2007 Semiannual Report, p. 14.
10 March 2007 Semiannual Report, p. 20.

                                                                                       23

Audits & Reviews


                   University’s subaward monitoring system. UPR did not adequately monitor
                   subaward costs or subawardee cost sharing for one award that included seven
                   subawards amounting to $3.1 million, or 58 percent of the total costs charged
                   to the NSF award. The auditors questioned $16,030 of which $8,530 were
                   unsupported or erroneous subcontractor costs and the remaining $7,500 were
                   incorrectly billed indirect costs.

                   UPR submitted additional documentation to support $5,713 of the questioned
                   subcontract costs and NSF sustained the remaining $10,317 (64 percent). NSF
                   verified that UPR established written policies and procedures for implementing
                   a subaward monitoring program and ensuring that indirect costs are properly
                   claimed.

                   Community College Failure to Follow Own Procedures
                   Results in Repayment of $154,946 to NSF
                   Nashville State Technical Community College (NSTCC) has refunded $154,946
                   of questioned costs and has taken steps to improve and implement procedures
                   to prevent future unallowable charges to federal awards, in response to an audit
                   report that first appeared in our March 2007 Semiannual Report.11

                   An audit of $2.7 million awarded to NSTCC found that the college did not
                   always adhere to its established policies and procedures for: 1) maintaining
                   many routine accounting documents; 2) calculating indirect costs charged to its
                   NSF grants; and, 3) maintaining certifications and personnel activity reports for
                   employees working on NSF programs. The auditors questioned $185,213 of
                   NSTCC’s claimed costs.

                   As indicated above, NSTCC generally agreed with the audit recommendations
                   and stated that it had initiated corrective action. However, NSTCC disagreed
                   that it lacked appropriate documentation for certain costs charged to its NSF
                   awards and that it did not have adequate documentation to support its cost
                   share.

                   During audit resolution, NSF reviewed documentation submitted by NSTCC in
                   support of its corrective actions including: newly updated NSTCC policies and
                   procedures for document retention and for ensuring indirect costs charged for
                   federal programs are pursuant to federal grant agreements; and the develop-
                   ment of additional internal control procedures to ensure that NSTCC employees
                   follow existing policies and procedures related to accountability of federal funds.
                   NSF sustained $154,946 of the questioned costs.

                   Nonprofit Improves Its Internal Control Procedures
                   In response to a 2007 audit at the American Institute of Mathematics (AIM),12
                   NSF completed an on-site review to verify whether recommended corrective
                   actions had been implemented satisfactorily to address over $2 million of unsup-
                   ported costs and the control deficiencies in AIM’s accounting for NSF award
                   funds. NSF management reported that AIM had improved its administrative
                   11 March 2007 Semiannual Report, pp. 19-20.
                   12 March 2007 Semiannual Report, p. 19.


             24

                                                             OIG Semiannual Report    March 2008


policies and procedures to support future employee salaries, developed accept-
able subaward agreements, and negotiated an indirect cost rate with NSF. Also,
because time and effort records were not available, AIM provided payroll tax
summaries and Internal Revenue Service 1099 forms to NSF to substantiate the
questioned employee and contractor salaries. In addition, NSF program direc-
tors overseeing AIM awards provided assurance that AIM met the award
objectives, thereby suggesting the questioned labor costs had actually benefited
NSF’s awards. NSF will continue to monitor AIM’s revision of its chart of ac-
counts to facilitate accurate recording of costs on NSF awards.

The 2007 audit report stated that AIM could not adequately support $1.57 million
of employee salaries, $882,054 of NSF funds provided to subawardees and
independent contractors, and $23,531 of travel, participant support, and indirect
costs. In addition, AIM’s accounting system was unable to ensure accurate,
current, and complete disclosures of the financial results of its NSF awards.
This occurred because AIM used an automated accounting system along with
manually prepared records to track and report NSF award costs, and discrepan-
cies were found between the two.




Work in Progress
NSF’s Use of Its Research Center Programs’
Programmatic and Financial Information
Following on our review of NSFs’ management and oversight of its research
center programs, we recently began an audit of the programmatic and financial
information NSF collects on these programs. The objective is to determine what
and how NSF is using information it collects from its research centers to monitor
and assess center performance. We anticipate completion of this audit by the
end of 2008.


Sufficiency of NSF’s Cooperative Agreements for Large
Facility Projects
As reported in our September 2007 Semiannual Report,13 the OIG is conducting
a series of audits to determine whether the terms and conditions included in
NSF’s cooperative agreements for the management and operation of its large
facilities projects are sufficient for NSF to provide stewardship over its programs
and assets. Using a representative sample of six currently operating facilities,
we are assessing the sufficiency of NSF’s cooperative agreements to ensure: 1)
accomplishment of programmatic goals; 2) financial and administrative account-
ability; 3) protection of NSF assets; and 4) compliance with laws and regula-
tions. Our first report on terms and conditions ensuring the accomplishment of
programmatic goals will be issued early in the next semiannual period.

13 September 2007 Semiannual Report, p. 24.




                                                                                      25

Audits & Reviews




                   Audit of NSF Controls over the Collection, Storage,
                   Access and Use of Personally Identifiable Information
                   Work continues on an OIG audit of the adequacy of NSF controls for safeguard-
                   ing electronic and paper forms of personally identifiable information of its
                   employees, visitors, principal investigators and peer reviewers. Our report will
                   be issued during the next semiannual period.

                   NSF’s Audit Resolution Policies and Practices
                   The OIG is assessing NSF’s procedures to resolve and ensure corrective action
                   is taken on audits of its grantee institutions. In this initial survey phase, we
                   will gain an understanding of NSF’s audit resolution policies, procedures, and
                   practices.




             26

                                                        Investigations


Civil and Criminal Investigations

Two Indicted in Separate Cases of Purchase Card
Abuse at Same Georgia University
In two unrelated cases at the same university, an accountant and a
program coordinator were each indicted for using purchase cards
(P cards) to pay for personal purchases. Combined, the two are
alleged to have improperly charged $489,000, most of it to NSF
awards.

Accountant Charges NSF for $316,000 in Personal Items. A
former accountant at an NSF-funded research center at a Georgia
university purchased over 3,800 personal items over 5 years at a
total cost of more than $316,000. The accountant used state-is-
sued P cards to buy personal items, primarily from internet vendors
which she directed to ship the items to her home or to relatives in
Alabama, Florida, and California. In order to conceal her personal
purchases, she submitted forged receipts to her supervisor for
approval and used the research center accounting system to move
her P card charges to several different accounts so they would be
difficult to track.

The accountant resigned after the university’s internal auditors
requested information about her P card purchases. The university
referred the matter to OIG for investigation after they identified
thousands of purchases from online vendors. We subpoenaed
documents related to these transactions, which indicated that she
routinely purchased groceries, clothing, and electronics for herself
and her family. The accountant also purchased college football
season tickets and supplies for tailgating parties at football games.
The internal auditors assisted us in tracking the purchases through
the university’s accounting system to the NSF center account as
well as six other state and private research accounts.

After the accountant refused to be interviewed for our investigation,
the Federal Bureau of Investigation (FBI) joined our investigation
and served a search warrant at her home. Over 50 items the
accountant purchased with her P card were seized, including
several digital cameras, a lawn tractor, a personal water craft, a 32”
flatscreen HDTV, and a frozen drink machine. Many other items             HIGHLIGHTS
were photographed, including a double wall oven, a dishwasher and         Civil and Criminal
two RV air conditioners.                                                   Investigations      27
                                                                          Administrative
                                                                           Investigations      31



                                                                         27
Investigations


                 On March 5, 2008, the accountant was indicted in the U.S. District Court for the
                 Northern District of Georgia on 17 counts of mail fraud, and five counts of theft
                 from an organization receiving federal funds.

                 Program Coordinator Charged with Theft. A former program coordinator
                 under an NSF grant to the same Georgia university was indicted on state
                 charges of theft, also involving the personal use of a state-issued P card. The
                 P card misuse was first identified by a state-wide audit of the P card program.
                 The program coordinator resigned from the university after admitting to the
                 state auditor and a state investigator that she used the P Card for personal
                 purchases.

                 Since the initial audit only looked at a limited number of transactions, we worked
                 with the university’s internal audit department to review all possible personal
                 purchases and financial transactions submitted by the program coordinator
                 from 2003 through 2007, the period she was employed. We identified $173,000
                 in personal charges by the program coordinator with her P card, and also
                 determined that she received $5,000 when she submitted a false request for
                 reimbursement.

                 The program coordinator falsely charged $120,000 to an NSF grant and
                 $58,000 to state and private research accounts. Her personal purchases
                 included automobile insurance and repairs, groceries, and jewelry. In order to
                 conceal her personal purchases, the program coordinator altered receipts and
                 used the university accounting system to move her P card charges to several
                 different accounts so they would be difficult to track. When we interviewed
                 the program coordinator, she admitted using the P-card to make personal
                 purchases, and admitted that the $5,000 reimbursement was false and used to
                 pay personal debts.

                 On March 21, 2008, the program coordinator was indicted in the Superior Court
                 of Fulton County, Georgia, for Theft By Taking.

                 Award Obtained Through False Statements Is Terminated,
                 PI Debarred, and $1.25 Million Put to Better Use
                 NSF terminated an education award and debarred the PI for making false
                 statements in his proposal. As discussed in a previous Semiannual Report,14
                 the executive director of an education-oriented research firm received an award
                 for over $2 million, based in part on the participation of a particular collaborator.
                 However, the collaborator had previously told him, in writing, that it could not
                 participate in the project. The executive director submitted an altered letter of
                 support as evidence of the nonexistent collaboration.

                 We referred the matter with our recommendations to NSF, which concurred,
                 terminated the award, and debarred the executive director for a period of 5
                 years. The termination of the award enabled NSF to put $1.25 million to better
                 use.

                 14 September 2007 Semiannual Report, p.27.




           28

                                                                          OIG Semiannual Report   March 2008


PI Who Obtained SBIR Grant Under False Pretenses Is
Recommended for Debarment
As reported in a previous Semiannual Report,15 OIG determined that a small
business wrongfully received a Phase II grant from the Small Business Innova-
tion Research (SBIR) Program because its owner, who was also the PI, falsely
told NSF that her company was a “spin-off” of the Phase I awardee company.
The PI was an officer and shareholder at the original company, and led the
other officers to believe that she submitted the Phase II proposal on behalf of
the original company. However, without their knowledge, she then negotiated
the change of grant entity with NSF. We informed NSF that the PI’s new com-
pany was not a “spin-off” or affiliated in any way with the original company, and
NSF terminated the Phase II grant. After the U.S. Attorney’s Office declined
prosecution, we recommended that NSF debar both the PI and her company for
3 years.

Debarment Recommended for Two Who Abused Purchase
Cards at DC Institution
OIG recommended that NSF debar two accounting managers at a grantee
institution in the District of Columbia who engaged in a scheme to use two
organizational purchase cards to pay for unauthorized personal expenditures
exceeding $100,000 each. The two colluded to cover up each other’s
fraudulent charges, by abusing their responsibilities for reviewing, reconciling,
and accounting for certain purchase card transactions. Their conspiracy was
uncovered by an internal audit conducted by the grantee institution initiated
as a result of a previous unrelated instance of employee embezzlement. The
employees each pled guilty to mail fraud. The employee who served in a
supervisory position was sentenced to 15 months incarceration, restitution, and
2 years of supervised release. The other employee, who was the first to plead
guilty and provide details of the criminal conduct to the Department of Justice,
was sentenced to 5 years of probation, restitution, and 200 hours of community
service.

We recommended that NSF debar both of the individuals for 3 years because,
even though they did not embezzle federal funds, they were both responsible
for management and oversight of federal and non-federal funds. Moreover,
their job histories made it reasonable to expect that they will seek similar posi-
tions accounting for federal funds in the future.

Agency Debars Former Research Center Employee
Convicted of Mail Fraud
In response to our recommendation, NSF debarred a former employee of an
NSF funded research center for 3 years. As reported in previous Semiannual
Reports,16 the employee pled guilty to one count of mail fraud in response to
a federal indictment and was subsequently sentenced in federal court to 16
months in federal prison, 3 years of supervised release, and ordered to pay res

15 September 2007 Semiannual Report, p.26.
	
16 September 2007 Semiannual Report, p.25; March 2007 Semiannual Report, p.30.
	

                                                                                                  29

Investigations


                 titution. The employee converted research center funds, including funds from
                 NSF, to her personal use by purchasing items such as books and iPods with
                 the research center’s purchasing card. She re-sold the items she purchased on
                 eBay, using the research center’s FedEx account to ship the items she sold.

                 Convicted Professor Is Recommended for Debarment
                 OIG recommended that NSF debar for 5 years a former professor at a Tennes-
                 see university who pled guilty to making false statements to NSF in violation
                 of 18 U.S.C. § 1001. The former professor was sentenced to six months home
                 confinement, 2 years probation, and ordered to pay restitution of $25,598, as
                 discussed in a previous Semiannual Report.17 The professor used her position

                 as a center director at the university and PI on NSF grants to falsely charge
                 expenses to accounts at the university, including NSF grant accounts, for work
                 that was actually related to a personal consulting contract.

                 Explicit Material Found on Two Agency Computers
                 OIG received information that an NSF employee’s computer system contained
                 substantial inappropriate material, in violation of NSF’s computer use policies.
                 NSF turned over the employee’s hard drive to our office for analysis, which
                 confirmed that numerous sexually explicit image and video files, and dozens of
                 full-length copyrighted movies were present on the computer. The hard drive
                 also contained a peer-to-peer file-sharing program. None of the image or movie
                 files depicted underage subjects, which is illegal and would have resulted in
                 criminal charges. After the employee acknowledged his culpability, we referred
                 our findings to NSF for appropriate action. NSF issued a letter to the subject
                 proposing his termination, but the employee resigned instead.

                 We conducted a review to determine whether additional NSF employees had
                 been violating NSF computer policies by downloading media files inconsistent
                 with NSF’s policy. We identified an NSF employee whose network computer
                 drive contained a large number of sexually explicit files. We interviewed the
                 employee and he acknowledged accessing, viewing, and downloading this
                 material on his NSF computer in violation of NSF’s policies regarding the per-
                 sonal use of agency communication resources. We referred the matter to NSF
                 management with a recommendation that they take appropriate action. Their
                 response is pending.

                 NSF Responds to Recommendations to Strengthen
                 Contracting Practices
                 During this semiannual period, NSF responded to our recommendations for
                 improvements in its contracting and administrative practices that arose from an
                 investigation involving a potential Antideficiency Act violation.18 NSF acknowl-
                 edged the value of monitoring and, when necessary, mitigating risk in contract-
                 ing transactions. NSF agreed to consider further refinements to its oversight
                 program, while noting that the circumstances referred to in the investigation
                 17 September 2007 Semiannual Report, p.25.
                 18 September 2007 Semiannual Report, p.38.


           30

                                                             OIG Semiannual Report    March 2008


were outside the scope of normal contracting activity, and occurred prior to the
implementation of strengthened management controls and procedures recom-
mended by the Chief Financial Officer. NSF agreed with the need for a COTR
handbook to be developed as soon as possible and anticipates completion by
the end of April 2008, along with implementation of COTR training through the
NSF Academy. NSF also agreed to review its procedures for responding to
potential Antideficiency Act issues, including a review to ensure compliance
with applicable appropriations law and Office of Management and Budget
guidance.

PI Debarred for Submitting False Project Reports
Our investigation into an allegation of false statements to NSF concluded that
the PI at a university in Pennsylvania falsified multiple final project reports to
NSF, claiming an international collaboration where none existed.19 We referred
the misrepresentations to the U.S. Attorney’s Office, which declined prosecution
in lieu of strong administrative action. We recommended NSF take specific
action to protect federal interests and NSF agreed and debarred the PI for 3
years.



Administrative Investigations

Actions by NSF Management

PI Plagiarized in Five Proposals Submitted to NSF
An investigation confirmed that a PI plagiarized substantial amounts of text into
his five NSF proposals. We received an allegation that a PI and co-PI from an
Ohio university plagiarized material from a published paper into an unfunded
NSF proposal. The PI and co-PI explained to our investigators that they had
accidentally uploaded a draft version of the proposal, one not meant for submis-
sion. However, the university’s inquiry committee determined that the PI was
responsible for the plagiarism and had misled his co-PI regarding the advent of
the plagiarized text. In addition, the university’s investigation committee learned
that the PI plagiarized identical material in a proposal he submitted to an inter-
national science foundation. The investigation committee concluded that the
subject knowingly plagiarized material in multiple proposals and recommended
that the PI not be reappointed. The PI resigned from the university.

Our office examined the PI’s other proposals and found he plagiarized a total
of approximately 129 unique lines, 2 unique figures and captions, and 18
unique embedded references from 11 sources in five proposals. We concurred
with the university’s findings and recommended that NSF: make a finding of
research misconduct against the PI; send him a letter of reprimand; require
certifications and assurances from PI for 3 years; and require completion of an
ethics course with documentation provided to OIG upon completion. NSF’s
Deputy Director agreed and implemented all of our recommendations.
19 September 2007 Semiannual Report, p.27.

                                                                                      31

Investigations


                 Research Misconduct Findings Made by the Deputy
                 Director
                 NSF’s Deputy Director made findings of research misconduct and concurred
                 with our recommendations in the following cases that were described in previ-
                 ous Semiannual Reports and forwarded to her office for action:

                 •		   Our most recent Semiannual Report summarized a case in which a gradu-
                       ate student at a Washington university admitted he falsified and fabricated
                       NSF-funded research data in four manuscripts, three of which were pub-
                       lished. 20 Consistent with our recommendations, the Deputy Director made
                       a finding of research misconduct; sent the student a letter of reprimand;
                       debarred the student for 3 years; required both certifications and assurances
                       for 3 years following debarment; and barred the student from serving as an
                       NSF reviewer for 3 years. The Deputy Director also required the student to
                       complete an ethics training course.

                 •		   We received an allegation that a post-doctoral researcher (the subject)
                       at a university in Pennsylvania falsified a figure in a paper that cited NSF
                       support.21 The university’s investigation concluded the subject falsified the
                       figure, and the university dismissed him. We agreed with the university’s
                       conclusions and recommended NSF make a finding of research misconduct
                       against him. NSF agreed and took the additional recommended actions
                       of: debarring the subject for 2 years; requiring the subject to retract the
                       publication; and requiring the subject to attend an ethics course. NSF also
                       required the subject to: certify for 2 years after the end of the debarment
                       that any proposals submitted by the subject contain no plagiarized, falsified,
                       or fabricated material; and submit for 2 years after the end of the debarment
                       the assurances of a university official who has reviewed the subject’s NSF
                       proposals and reports and concluded they do not contain any plagiarized,
                       falsified, or fabricated material.

                 •		   As described in a previous Semiannual Report, we referred an allegation of
                       plagiarism in a proposal submitted to NSF by a PI and two co-PIs to their
                       university.22 Although the PI blamed his former post-doctoral researcher
                       for the plagiarism, the university concluded the PI was responsible for the
                       copied material in his proposal, and, consequently, committed plagiarism.
                       We agreed with the university and recommended NSF make a finding of
                       research misconduct against him. NSF agreed and took the additional ac-
                       tions of requiring the PI to: certify for 5 years that any proposals submitted
                       by him contain no plagiarized, falsified, or fabricated material; submit for 5
                       years the assurances of a university official who has reviewed the PI’s NSF
                       proposals and reports and concluded they do not contain any plagiarized,
                       falsified, or fabricated material; and certify completion of an ethics course on
                       plagiarism.

                 •		   A Michigan university’s investigation concluded that its professor knowingly
                       committed significant plagiarism in a total of four NSF proposals, as well
                       as small amounts of plagiarism in numerous proposals he submitted to
                 20 September 2007 Semiannual Report, p.31.
                 21 September 2007 Semiannual Report, p.31.
                 22 September 2007 Semiannual Report, p.32.


           32

                                                                             OIG Semiannual Report            March 2008


      other funding entities.23 NSF agreed with our recommendation to make a
      finding of research misconduct. For the next 3 years, the professor must
      certify and obtain assurances from a university official that any proposals or
      reports he submits to NSF do not contain plagiarized, falsified, or fabricated
      material. NSF also required the professor to complete an ethics course on
      plagiarism.

•		   An investigation of a Massachusetts university PI found that he plagiarized
      in four NSF proposals, two of which were funded.24 Consistent with our
      recommendations, NSF’s Deputy Director: made a finding of research
      misconduct; required that for 3 years the PI certify and obtain supervisor
      assurance that proposals he submits to NSF do not contain plagiarized,
      falsified, or fabricated material; and required the PI to complete a research
      ethics course.


Reports Forwarded to NSF Management

Masters Student Fabricates Data in Thesis
OIG and university investigations concluded that a student, who was receiving
funds through an NSF award to her advisor, fabricated the underlying data for
graphs presented to her thesis committee at a Washington university. The
student’s university found that the student recorded and documented her data
properly during some months of her research, but also found improprieties.
Specifically, the few electronic files available demonstrated the student’s
improper use of “correction factors” to achieve the results she desired in an
effort to demonstrate their validity. Based on its investigation, the university
concluded the student fabricated her research data, and the university expelled
the student.

We concurred with the university’s findings. We recommended that NSF:
make a finding of research misconduct; debar the student for 3 years; require
certification of completion of a course in appropriate data handling and record
keeping before receiving funds from any NSF award; for 3 years following the
debarment period, require certifications by the student and assurances from
her employer that any proposals or reports submitted to NSF do not contain
research misconduct; and bar the student from serving NSF as a reviewer or in
any advisory capacity during the debarment and for 3 years after.

New Faculty Member Plagiarizes in First Proposal
A PI at a Pennsylvania university in his first faculty position plagiarized a signifi-
cant amount of text from five sources into his first NSF proposal. We reviewed
the proposal and completed an inquiry involving the PI and a senior faculty
member he had identified as the co-PI. As a result of our inquiry, we referred
the matter for investigation to the university with respect to both the PI


23 September 2007 Semiannual Report, p.33-34.

24 September 2007 Semiannual Report, p.34, “PI Plagiarizes in Four NSF Proposals,” mistakenly stated that 

we recommended debarment and a bar from peer review.


                                                                                                              33

Investigations


                 and co-PI. The university found that the sole responsibility for the text in the
                 proposal lay with the PI, and exonerated the co-PI. The university found that
                 the PI committed knowing plagiarism.

                 We reviewed the university’s report and concurred with its findings. We recom-
                 mended that NSF: send the PI a letter of reprimand notifying him of the finding
                 of research misconduct; require the PI to submit certification of his completion
                 of an ethics course before submitting any proposal to NSF as a PI or Co-PI; for
                 a period of 2 years require the PI to submit certifications by the PI and assur-
                 ances from his employer that his NSF proposals and reports do not contain
                 research misconduct; and bar the PI from serving NSF as a reviewer, advisor,
                 or consultant for a period of 2 years.




           34

                                                  Statistical Data


                        Audit Data

 Audit Reports Issued with Recommendations
           for Better Use of Funds

                                                 Dollar Value
A.   For which no management decision has            $1,945,240
     been made by the commencement of the
     reporting period

B.   Recommendations that were issued                           $0
     during the reporting period

C.   Adjustments related to prior                               $0
     recommendations

Subtotal of A+B+C                                    $1,945,240

D.   For which a management decision was                        $0
     made during the reporting period

     i)    Dollar value of management                           $0
           decisions that were consistent with
           OIG recommendations

     ii)   Dollar value of recommendations                      $0
           that were not agreed to by
           management

E.   For which no management decision had
     been made by the end of the reporting           $1,945,240
     period

For which no management decision was made            $1,945,240
within 6 months of issuance



                                                                      HIGHLIGHTS
                                                                      Audits           35
                                                                      Investigations   44




                                                                     35
Statistical Data


                      Audit Reports Issued with Questioned Costs

                                                                Number of           Questioned            Unsupported
                                                                 Reports              Costs                  Costs

    A.   For which no management decision                            29             $60,878,183            $2,816,052
         has been made by the commencement
         of the reporting period

    B.   That were issued during the reporting                       17              $7,211,063            $3,006,768
         period

    C.   Adjustment related to prior                                 (1)             ($10,000) 25                $0
         recommendations

    Subtotal of A+B+C                                                45             $68,079,246            $5,822,820

    D.   For which a management decision was                         19              $4,174,150            $3,086,139
         made during the reporting period

            i)        dollar value of disallowed                    N/A               $192,172                  N/A
                      costs
            ii)       dollar value of costs not                     N/A             $3,981,978                  N/A
                      disallowed

    E.   For which no management decision                            26            $63,905,096             $2,736,681
         had been made by the end of the
         reporting period

    For which no management decision was                             10             $57,130,000             $165,880
    made within 6 months of issuance




1
  “Management Resolution” occurs when the OIG and NSF management agree on the corrective action plan that will be imple-
25   A finding
mented          in an A-133
          in response  to theaudit
                              auditwas misrepresented in the tables.
                                    recommendations.
2
  “Final Action” occurs when management has completed all actions it agreed to in the corrective action plan.


             36

                                                          OIG Semiannual Report   March 2008


              Audit Reports Involving Cost-Sharing Shortfalls

                                          Number of     Cost-       At Risk of    Actual Cost
                                           Reports     Sharing     Cost Sharing     Sharing
                                                      Promised       Shortfall     Shortfalls
                                                                    (Ongoing      (Completed
                                                                     Project)       Project)

A.   Reports with monetary findings          4        $6,828,044    $796,730            $0
     for which no management
     decision has been made by the
     beginning of the reporting period:


B.   Reports with monetary findings          1           $0            $0          $64,730
     that were issued during the
     reporting period:

C.   Adjustments related to prior            0           $0            $0               $0
     recommendations

Total of reports with cost sharing           5        $6,828,044    $796,730       $64,730
findings (A+B+C)

D.   For which a management                  3        $2,147,780    $511,792            $0
     decision was made during the
     reporting period:

     1.Dollar value of cost-sharing          3        $2,147,780    $511,792            $0
     shortfall that grantee agreed to
     provide

     2.Dollar value of cost-sharing          3        $2,147,780       $0               $0
     shortfall that management
     waived

E.   Reports with monetary findings          2        $4,680,264    $284,938       $64,730
     for which no management
     decision has been made by the
     end of the reporting period




                                                                                  37

Statistical Data


                            Status of Recommendations that
                      Involve Internal NSF Management Operations

  Open Recommendations (as of 3/31/2008)
  Recommendations Open at the Beginning of the Reporting Period                                                52
  New Recommendations Made During Reporting Period                                                             48
  Total Recommendations to be Addressed                                                                       100
  Management Resolution of Recommendations                   26


  Awaiting Resolution                                                                                          39
  Resolved Consistent With OIG Recommendations                                                                 61
  Management Decision That No Action is Required                                                                0
  Final Action on OIG Recommendations               27


  Final Action Completed                                                                                       24
  Recommendations Open at End of Period                                                                        76




                                Aging of Open Recommendations
	

  Awaiting Management Resolution:
  0 through 6 months                                                                                           35
  7 through 12 months                                                                                           1
  More than 12 months                                                                                           3
  Awaiting Final Action After Resolution
  0 through 6 months                                                                                           13
  7 through 12 months                                                                                           6
  More than 12 months                                                                                          18




26 “Management resolution” occurs when the OIG and NSF management agree on the corrective action plan that will be imple-
mented in response to the audit recommendations.

27 “Final action” occurs when management has completed all actions it agreed to in the corrective action plan.




             38
                                                          OIG Semiannual Report    March 2008


                                        List of Reports

                         NSF and CPA Performed Reviews

Report     Subject                               Questioned    Unsupported    Better     Cost
Number                                           Costs         Costs          Use of     Sharing
                                                                              Funds      At-Risk
08-1-001   WGBH Educational Foundation             $808,383          $6,737       $0          $0
08-1-002   University of Utah Effort Reporting            $0            $0        $0          $0
           System
08-1-003   UCAR – University Corporation for              $0            $0        $0          $0
           Atmospheric Research
08-1-004   University of California –               $25,778             $0        $0          $0
           Berkeley Effort Reporting
08-1-005   University of Illinois at Urbana-         $6,329             $0        $0          $0
           Champaign Effort Reporting
08-1-006   SRI International                              $0            $0        $0          $0
08-1-007   WHOI Woods Hole Oceanographic                  $0            $0        $0          $0
           Institution
08-1-008   BIOS IC Bermuda Institute for Ocean            $0            $0        $0          $0
           Sciences Internal Controls
08-2-001   NSF FY2007 Special Purpose                     $0            $0        $0          $0
           Financial Statement
08-2-002   NSF’s Oversight of Centers                     $0            $0        $0          $0
08-2-003   NSF FY2007 Financial Statement                 $0            $0        $0          $0
           Audit Report
08-2-004   NSF’s FY2007 Management Letter                 $0            $0        $0          $0
           Report
08-3-001   Internal Quality control Review of             $0            $0        $0          $0
           California Institute of Technology
           #07-1-013
08-6-001   OIG Assessment of Joint Statement              $0            $0        $0          $0
           of Understanding
           Total:                                  $840,490          $6,737       $0          $0




                                                                                   39

Statistical Data


                                      NSF-Cognizant Reports

   Report                     Subject                  Questioned    Unsupported    Cost Sharing
   Number                                                Costs          Costs         At-Risk

  08-4-001     9-06 UCAR University Corporation                $0             $0                   $0
               for Atmospheric Research
  08-4-002     6-05 California Academy of                  $11,814        $11,814                  $0
               Sciences
  08-4-003     12-06                                           $0             $0                   $0
  08-4-004     9-06 California Institute of                    $0             $0                   $0
               Technology
  08-4-005     6-06 Carnegie Institution of                    $0             $0                   $0
               Washington
  08-4-006     6-05 Carnegie Institution of                    $0             $0                   $0
               Washington
  08-4-007     12-05 BBSR/BIOS Bermuda                         $0             $0                   $0
               Biological Station for Research, Inc.
  08-4-008     12-04 Carnegie Institute                        $0             $0                   $0
  08-4-009     12-05 Carnegie Institute                        $0             $0                   $0
  08-4-010     6-06 Henry E. Huntington Library &              $0             $0                   $0
               Art Gallery
  08-4-011     12-06 ICSI International Computer               $0             $0                   $0
               Science Institute
  08-4-012     6-06 ITEA International                         $0             $0                   $0
               Technology Education Association,
               Inc. & Foundation
  08-4-013     6-04 ITEA International                         $0             $0                   $0
               Technology Education Association,
               Inc. & Foundation
  08-4-014     6-05 Earth & Space Research                     $0             $0                   $0
  08-4-015     9-06 Center for Image Processing in             $0             $0                   $0
               Education, Inc.
  08-4-016     6-04 ADEC                                       $0             $0                   $0
  08-4-017     9-05 Kentucky Science &                         $0             $0                   $0
               Technology Corporation
  08-4-018     12-04 World Technology Evaluation               $0             $0                   $0
               Center
  08-4-020     12-06 Horizon Research, Inc.                    $0             $0                   $0
  08-4-021     12-06 Barrow Arctic Science                     $0             $0                   $0
               Consortium
  08-4-022     6-04 NSBP National Society of                   $0             $0                   $0
               Black Physicists
  08-4-023     6-05 NSBP National Society of                   $0             $0               .$0
               Black Physicists
  08-4-024     6-06 NSBP National Society of                   $0             $0                   $0
               Black Physicists



             40

                                                      OIG Semiannual Report   March 2008


                           NSF-Cognizant Reports (cont.)

08-4-025   9-06 JOI Joint Oceanographic              $0             $0                 $0
           Institutions
08-4-026   12-05 Internet Systems Consortium         $0             $0                 $0
08-4-027   12-04 Academy of Natural Sciences         $0             $0                 $0
08-4-028   12-05 Academy of Natural Sciences         $0             $0                 $0
           of Philadelphia
08-4-029   12-06Academy of Natural Sciences          $0             $0                 $0
           of Philadelphia
08-4-031   6-05 ADEC                                 $0             $0                 $0
08-4-032   12-05 World Technology Evaluation         $0             $0                 $0
           Center, Inc.
08-4-033   12-06 WHOI Woods Hole                     $0             $0                 $0
           Oceanographic Institution
08-4-034   6-04 NSBP National Society of             $0             $0                 $0
           Black Physicists
08-4-035   6-05 NSBP National Society of             $0             $0                 $0
           Black Physicists
08-4-036   6-06 NSBP National Society of             $0             $0                 $0
           Black Physicists
08-4-037   9-06 AUI Associated Universities,         $0             $0                 $0
           Inc.
08-4-038   12-04 UCAID University Corporation        $0             $0                 $0
           for Advanced Internet Development
08-4-039   12-05 UCAID University Corporation        $0             $0                 $0
           for Advanced Internet Development
08-4-040   12-06UCAID University Corporation      $7,254            $0                 $0
           for Advanced Internet Development
08-4-041   12-06 American Geophysical Union          $0             $0                 $0
08-4-042   12-06 American Anthropological            $0             $0                 $0
           Association
08-4-043   12-06 CUAHSI Consortium of                $0             $0                 $0
           Universities for the Advancement of
           Hydrologic Science
08-4-044   6-05 ITEA International Technology        $0             $0                 $0
           Education Association
08-4-045   12-06 Rocky Mountain Biological           $0             $0                 $0
           Laboratory
08-4-046   12-06 Shodor Educational                  $0             $0                 $0
           Foundation, Inc.
08-4-047   6-06 California Academy of                $0             $0                 $0
           Sciences
08-4-048   12-06 Denver Museum of Nature             $0             $0                 $0
           and Science
           Total:                                $19,068       $11,814                 $0




                                                                              41

Statistical Data


                                          Other Federal Audits

   Report                                            Questioned     Unsupported     Cost Sharing
   Number                       Subject                Costs           Costs          At-Risk
  08-5-007         6-05 Sisseton-Wahpeton College        $10,575              $0               $0

  08-5-009         6-06 State of Rhode Island           $435,967        $435,967               $0

  08-5-010         6-06 Claremont McKenna College       $125,269        $125,269               $0

  08-5-012         6-06 Mt. San Antonio Community       $141,443        $141,443               $0
                   College District
  08-5-014         6-06 Rochester Institute of          $162,965              $0               $0
                   Technology
  08-5-023         6-05 Fisk University                   $1,985              $0               $0

  08-5-024         6-06 Fisk University                    $3,126             $0               $0

  08-5-028         8-06 Long Island University           $47,996         $47,996               $0

  08-5-030         6-05 University of Medicine and       $12,838             $92               $0
                   Dentistry of New Jersey
  08-5-032         6-06 State of Louisiana              $130,755        $130,755               $0

  08-5-034         6-06 Howard University               $291,910        $211,059               $0

  08-5-035         6-06 University of Missouri        $4,986,676       $1,895,636              $0
                   System Office
                   Total:                              $6,351,505      $2,988,217              $0




             42

                                                           OIG Semiannual Report    March 2008




             Audit Reports With Outstanding Management Decisions

This	section	identifies	audit	reports	involving	questioned	costs,	funds	put	to	better	use,	and	
cost	sharing	at	risk	where	management	had	not	made	a	final	decision	on	the	corrective	ac-
tion necessary for report resolution with six months of the report’s issue date. At the end of
the reporting period there were eight reports remaining that met this condition. The status
of recommendations that involve internal NSF management is described on page 38.




                                                                                    43

Statistical Data




                                              Investigations Data

                                 (October 1, 2007 – March 31, 2008)

  Civil/Criminal Investigative Activities:

  Referrals to Prosecutors                                           11
  Criminal Convictions/Pleas                                         0
  Civil Settlements                                                  0
  Indictments/Information                                            3
  Investigative Recoveries                                           $1,513,135.51


  Administrative Investigative Activities:

  Referrals to NSF Management for Action                             17
  Research Misconduct Findings                                       6
  Debarments                                                         8
  Administrative Actions                                             32
  Certifications and Assurances Received28                           4



  Investigative Case Statistics:

                                                    Preliminary           Civil/Criminal           Administrative
  Active at Beginning of Period         29
                                                         59                     66                       62
  Opened                                                 76                     39                       32
  Closed                                                 93                     30                       31
  Active at End of Period                                42                     75                       63




28 NSF accompanies some actions with a certification and/or assurance requirement. For example, for a specified period, the
subject may be required to confidentially submit to OIG a personal certification and/or institutional assurance that any newly
submitted NSF proposal does not contain anything that violates NSF regulations.
29 Last period we reported 60 Preliminary cases and 67 C/C cases. During this period, a duplicate Preliminary case was deleted
and a C/C case was closed, which should have been counted as closed last period



             44

                                                           OIG Semiannual Report    March 2008




               Freedom of Information Act and Privacy Act Requests

Our office responds to requests for information contained in our files under the freedom of
Information Act (“FOIA,” 5 U.S.C. paragraph 552) and the Privacy Act (5 U.S.C. paragraph
552a). During this reporting period:

•   Requests Received                        16
•   Requests Processed                       15
•   Appeals Received                         2
•   Appeals Upheld                           2

Response time ranged between 2 days and 20 days, with the median around 13 days and the
average around 11 days.




                                                                                    45

[Blank Page]
                                               Performance Report

Goal 1
Promote NSF Efficiency and Effectiveness

1. I	 dentify and implement approaches to improve product
quality and timeliness.

•	   Initiate a process to convert to electronic audit workpapers.
•	   Establish a team to develop standard audit report content and
     presentation formats for performance and grant audit reports.
•	   Develop	and	finalize	a	policy	on	audit	reporting.
•	   Conduct a training session to provide guidance and examples of
     quality audit reports and quality Semiannual Reports write-ups.
•	   Complete most OIG audits within one year of conducting the
     planning conference.
•	   Complete 75% of all audits carried over from prior year.
•	   Develop	and	finalize	a	policy	on	relying	on	the	work	of	others.
•	   Develop	and	finalize	a	policy	on	A-133	audit	desk	review	and	
     oversight.
•	   Identify and monitor quarterly workload targets for each audit
     team.
•	   Discuss performance-based contracting with the Contracting
     Officer;	present	options	on	how	to	include	performance-based	
     language in our contracts.
•	   Contact	and	solicit	bids	from	at	least	five	new	IPA	firms.
•	   Solicit staff proposals for increased quality and timeliness of
     investigative product.
•	   Review OI operations for compliance with ECIE standartds of
     performance.
•	   Ensure	sufficiency	of	all	investigative	products.
•	   Review Investigations Manual and forms.

Audits. OIG continued its efforts to improve audit timeliness and
quality during this performance period. To convert from paper
to electronic workpapers, a task force within the Office of Audit
conducted technical and cost comparisons of four electronic work-
paper packages and recommended purchasing software from an
outside vendor. This year, the Office hoped to begin the process
of converting to electronic workpapers in keeping with most other
OIG and professional audit organizations. However, due to budget
constraints, office-wide conversion to electronic workpapers has
not yet been feasible.




                                                                       47
Performance Report


                     To improve the quality of audit reports, the Office of Audit developed a standard
                     audit report format for the content and presentation of grant audit reports. The
                     Office also issued a policy on audit reporting, which will help ensure that audit
                     reports are accurate, fair, and objective by requesting at the draft report stage
                     the views of those responsible for managing the auditee or the activity audited.
                     The policy will also help ensure effective corrective action on audit findings and
                     recommendations through the distribution of the final report to those charged
                     with governance and other stakeholders, such as the Congress and the
                     National Science Board. In addition, the policy will help ensure transparency
                     of audit work by requiring the publication of redacted final reports on the OIG
                     website within one day of issuance.

                     To increase the quality and timeliness of audit products, the Office of Audit pro-
                     vided training to its staff on writing audit reports and initiated training on writing
                     articles for Semiannual Reports. During the training, staff analyzed the format
                     and presentation of a well-written report and why it was effective in telling the
                     audit “story.” Staff also examined a report that lacked clarity to demonstrate the
                     importance of structure and organization in stating audit findings, conclusions,
                     and recommendations.

                     In the past year OIG completed 56 percent of the audits contracted to CPA
                     firms and 57 percent of audits performed by OIG staff within one year. Both
                     categories showed improvement over the percentages reported for the previous
                     performance year.30 OIG also completed 61 percent of the audits carried over
                     from the prior year, somewhat less than the comparable percentage reported
                     the previous year.31 Although the completion rate for carryover audits was less
                     than the target rate of 75 percent, some of our reports were delayed by circum-
                     stances beyond our control, as work was delayed by a concurrent investigation
                     at one auditee and turnover in staff at CPA firms under contract to OIG for three
                     other audits.

                     The Office of Audit developed two new policies to improve audit quality and
                     timeliness: one provides standards for monitoring the work of the CPA firms
                     and the Defense Contracting Auditing Agency, and the other provides guidance
                     on the review and oversight of Single Audit Reports for awardees that receive
                     NSF funds. The contractor monitoring policy will increase the quality and timeli-
                     ness of audit work by standardizing audit planning and procurement, oversight,
                     reporting, documentation, supervision, quality control, contractor-evaluation,
                     and invoice-processing functions within the Office. The policy on Single Audit
                     Report oversight will enable the Office to process the 100 or more audit reports
                     reviewed each semiannual period more effectively and efficiently. Because the
                     OIG has sufficient resources to audit only five percent of the NSF funds that
                     are considered high risk, the increased coverage provided by the Single Audit
                     Report enables both NSF and OIG to monitor a larger number of awardees.
                     The new policy will facilitate this important function.




                     30 March 2007 Semiannual Report, p. 40. Last year we completed 55 percent of the audits contracted to
                     CPA firms and 56 percent of audit performed by OIG staff within one year.
	
                     31 March 2007, Semiannual Report, p. 40. Last year we completed 68 percent of audits carried over from 

                     the prior year within one year.


               48

                                                             OIG Semiannual Report   March 2008


Other steps taken to improve audit quality and timeliness include tracking audit
workload targets each quarter, increasing the pool of CPA firms with which the
Office contracts, and developing performance-based language in OIG con-
tracts. Specifically, during this performance period, auditors interviewed seven
new CPA firms, posted a Request for Information Sources Sought on FedBiz
Ops, and received capabilities information from nine additional new CPA firms.
The inclusion of performance based language in contracts will provide firms
with incentives for producing quality, timely work and penalties for failing to do
so.

Investigations. The OIG’s Office of Investigations also made substantive
improvements in product quality and timeliness. Based on the recommenda-
tions of a staff task force, the Office is testing increased use of electronic
communications to expedite communications and reduce our use of paper
products.

Office management met to review investigative milestone completion records
in our ongoing effort to ensure that proper measures of performance are
established and maintained. We determined that the electronic milestone track-
ing ability incorporated last year into OIG’s Knowledge Management System
(KMS), which included a “flagging” system that alerts individual investigators
of approaching milestones, has effectively assisted investigators in assuring
milestones are met.

In preparation for our external peer review, the Office reviewed investigative
operations for compliance with PCIE/ECIE standards of performance. To help
ensure the impartiality of investigations, we developed an Investigator State-
ment of Personal Independence to be executed by all investigators working on
any investigation. The document is posted in the investigative file for future
reference. We also reviewed past peer review reports to ensure that all action
items were resolved. The Office subsequently underwent peer review by
another OIG and was found to be in compliance with all investigative standards
of performance.

Internal processes continue to ensure that appropriate quality control and
quality assurance are being applied in the production and dissemination of
Investigative Reports and Management Implication Reports, the products by
which we are measured outside OIG. We also reviewed and updated our
Investigative Manual, and corresponding forms, to respond to guidance the
Department of Justice provided to federal Offices of Inspectors General and to
incorporate efficiency initiatives implemented by management.

2. Strengthen our focus by refining approaches for selecting work and
setting priorities.

•	   Develop and execute the annual audit plan.
•	   Document	decision	for	final	selection	of	audits	included	in	the	audit	plan.
•	   Develop a risk analysis of NSF funding by program and Directorate.
•	   Identify and maintain focus on risk factors present in NSF programs and
     operations.
•	   Identify and maintain focus on high-risk institutions.


                                                                                     49

Performance Report


                     Audits. The Office of Audit conducted staff “brainstorming” sessions in May
                     2007 to begin preparation of the FY 2008 Audit Plan. We incorporated ideas
                     from those sessions along with risk assessments of NSF awards and awardee
                     institutions, OIG’s annual Management Challenges Letter, referrals from the
                     Office of Investigations, and NSF’s audit requests into the FY 2008 Audit
                     Plan, which we presented to the National Science Board in October 2007. We
                     documented the methodologies used in developing the risk analysis employed
                     to select audits for the Plan for future reference during audit planning. In
                     addition, we identified costs by program for all NSF’s directorates and divisions
                     as an important risk factor. To maintain focus on risk factors present in NSF
                     operations and programs, Audit staff attended Congressional hearings, NSB
                     meetings and NSF advisory committee meetings, and read Committee of Visi-
                     tors Reports and external reports on NSF programs. Identifying and focusing
                     on risk factors in NSF programs and operations and on high-risk awards and
                     institutions makes the most effective use of OIG’s limited resources.

                     Investigations. During this performance period, we sought input from Office
                     staff regarding the identification of risk factors relevant to NSF programs and
                     operations. Based upon that input, 13 proactive reviews were opened, resulting
                     in the development of a number of meaningful investigations.

                     Quarterly meetings between the Office of Audit and the Office of Investigations
                     to monitor and coordinate activities at high-risk institutions serve as a means
                     to exchange information, identify common concerns, proactively identify and
                     address possible conflicts, and monitor referrals made between the two offices.
                     These meetings have also resulted in our improved ability to select matters to
                     investigate as a result of audit recommendations.




               50

                                                              OIG Semiannual Report    March 2008


Goal 2
Safeguard the Integrity of NSF Programs and Resources

1. D
   	 etect and address improper, inappropriate, or illegal activities.

•	   Improve	our	ability	to	detect	falsified	figures	in	NSF	proposal.
•	   Assess	available	software	packages	for	enhanced	financial	analysis.
•	   Improve and accelerate the research misconduct investigative process.
•	   Implement a program to encrypt remotely stored or accessed sensitive
     information on OIG laptops and other data storage devices.

During this performance period, the Office of Investigations field tested dif-
ferent types of software to be used in the identification of falsified figures in
NSF proposals. A commercial software package was selected, and the new
capability will provide a valuable tool in our investigative efforts. Additionally,
this initiative resulted in a Management Implication Report to NSF management
proposing that NSF provide substantive guidance on how figures should be
presented by researchers in their proposals and reports.

We surveyed the research community to determine
the most efficient and economical means of facilitat-
ing the electronic transmission of financial data. This
has resulted in the increased provision of electronic
records for review and analysis during the investiga-
tive process and has enhanced our ability to conduct
such analysis.

To improve and accelerate the research misconduct
investigative process, we updated the text of the
letter that we use to refer matters to institutions for
inquiry and investigation. The improved wording of
the letter resolves issues that had been raised in the
research community regarding confidentiality of OIG
records. Further, it provides guidance to inquiry and
investigation committees to assist them in performing
their duties when research matters are brought to the
attention of the institution by OIG.

Finally OIG IT specialists successfully implemented
a program to encrypt sensitive information residing
on OIG laptops. We encrypted all of the office’s 22
laptop computers to ensure compliance with recently
adopted federal security requirements.
                                                                                       Attendees at
                                                                                       OIG’s Grant Fraud
2. S
   	 trengthen OIG proactive activities                                                Conference listen
                                                                                       to a presentation on
•	   Assess	efficacy	of	current	approach	for	identification	of	cases	and	priorities.   compliance
•	   Enhance proactive review planning process.                                        agreements
•	   Broaden scope of proactive activities appropriate for programs and grant-
     ees within NSF OIG jurisdiction.

                                                                                       51

Performance Report


                     Throughout this performance year, the Office of Investigation has continued to
                     enhance its proactive activities. We developed a proactive review plan based
                     upon the investigative risk areas identified by our staff. As a result, proactive
                     reviews are now even more focused on high-risk programs and institutions.
                     These proactive reviews have proven to be effective, not only in terms of inves-
                     tigations opened, but also in terms of surfacing systemic issues that are raised
                     to NSF through OIG Management Implication Reports.

                     Proactive preventative work has also been accomplished through sharing our
                     practices and products with other federal OIGs overseeing grant programs.
                     These include posters, hand-outs, fact sheets, slide shows, and other proac-
                     tive materials we have developed. Prior to this year’s NSF OIG Grant Fraud
                     Workshop, which was attended by approximately 130 investigators from 30
                     departments and agencies, we collected outreach materials from many federal
                     OIGs and made them available to attendees during the workshop.

                     OIG also provided assistance to the independent auditor performing the
                     annual evaluation of NSF’s IT security system. This effort is intended to help
                     safeguard the integrity of the agency’s programs and resources.




               52

                                                             OIG Semiannual Report    March 2008


Goal 3
Utilize OIG Resources Effectively and Efficiently

1. S
   	 trengthen and utilize the professional expertise and talents of all OIG
staff.

•	   Conduct a bi-annual survey of OIG staff to obtain its views on the effective-
     ness of :
     ◦		 OIG use of its resources in personnel, equipment, technology and
          contracting,
     ◦		 Management planning, policies, and procedures,
     ◦		 Internal communications and coordination,
     ◦		 OIG impact on NSF, and
     ◦		 KMS and other management tools.
•	   Analyze	survey	results	and	develop	and	implement	corrective	actions	for	
     any	problems	identified.
•	   Make system enhancements to KMS.
•	   Conduct KMS and other IT training, as necessary.
•	   Update KMS user manuals.
•	   Provide prompt, effective responses to requests for IT support.
•	   Identify and replace outdated computer systems.
•	   Implement an automated calling system for continuity of operations plan-
     ning and testing.
•	   Conduct at least one new employee orientation each year.
•	   Develop and implement annual audit training plan.
•	   Develop position descriptions for OA attorney-advisors.
•	   Develop an employee exit survey form with instructions. Conduct exit
     surveys with all exiting staff to obtain feedback on any issues and areas for
     office	improvement.	
•	   Conduct all-hands meeting once a quarter. Audit staff will be invited to
     suggest agenda topics to their respective SAMS or DAIGA.
•	   Provide basic FOIA/PA training to OIG staff.
•	   Conduct meetings between the Employee Survey Advisory Group and the
     AIGA on a quarterly or other mutually agreed upon schedule to discuss
     issues of continuing concern among audit staff.
•	   Incorporate instructional opportunities into investigatory training require-
     ments.
•	   Complete	training	identified	in	Individual	Development	Plans.
•	   Participate in interagency training.
•	   Maintain investigative training records and review investigative core compe-
     tency requirements.

OIG conducted a biennial survey of its staff in February 2008 and received
responses from 78 percent of the office’s full-time employees. The results are
being analyzed by a committee of staff members, who will present their findings
at an upcoming meeting with all OIG staff. A preliminary review indicated that
the office received positive ratings on all questions involving its use of resourc-
es, management planning, internal communications and coordination, OIG
impact on NSF, and the OIG Knowledge Management System (KMS). This


                                                                                      53

Performance Report


                     continues a trend in the surveys of the past few years showing improvement in
                     performance, especially in those areas that had previously been identified as
                     needing more management attention. Once the results have been discussed
                     in the office-wide meeting, OIG will develop a plan for correcting any problems
                     identified in the survey.

                     Numerous enhancements were made to the KMS to improve the efficiency
                     of administrative, audit, and investigative functions. These included a time-
                     tracking system for investigations staff, improved procedures for entering
                     personnel data, and new modules for monitoring OIG contracts, conducting
                     audit planning, maintaining staff training records, and tracking OIG outreach
                     activities. The KMS user manual was updated to reflect these improvements.
                     The IT specialists also used the OIG monthly meetings to update office staff on
                     system changes and conduct training on the use of new modules.

                     The IT specialists within the office provided training to all new employees and
                     to staff promptly as problems were identified or new system configurations were
                     implemented by NSF. They replaced 30 aging desktop computers, procured
                     8 new laptop computers, and provided upgrades for existing equipment. OIG
                     obtained a new high-speed internet connection for the Denver office that not
                     only resulted in significant cost savings, but also enabled videoconferencing to
                     improve Denver staff participation in office-wide meetings, audit staff meetings,
                     team/project conferences, and other interactive group activities. OIG tested
                     and implemented a new automated-dialing system for fast and reliable com-
                     munications with OIG staff in the event of a disruption of NSF operations or
                     other emergency. A subsequent test resulted in successful contact with all but
                     one staff member.

                     To provide developmental opportunities for students and others outside OIG,
                     the office continued its policy of recruiting interns and other staff for part-time
                     or temporary positions. Over the past 12 months, we have had four students
                     under the federal Student Temporary Employment Program and Student Career
                     Experience Program, one summer intern under the Hispanic Association of Col-
                     leges and Universities program, one student from the Washington Internships
                     for Native Students, and six student interns to provide investigation support
                     while they attend law school. We have also used the Federal Career Intern
                     Program for hiring one full-time employee, and OIG accepted two detailees
                     from NSF and one volunteer from the faculty of a Pennsylvania university who
                     wanted to learn about preserving scientific integrity and preventing research
                     misconduct.

                     Annual training was conducted for all OIG staff on the Freedom of Information
                     and Privacy Acts, conflicts of interest, and Office of Special Counsel require-
                     ments. The agency also conducted its annual IT security awareness training
                     for all staff, and the OIG monthly meetings were used to convey training on a
                     variety of topics involving OIG procedures for handling audits and investiga-
                     tions, administrative processes, updates on IT modifications, OIG outreach
                     activities, NSF directorate functions and priorities, and other areas related to
                     OIG work. We were also committed to making as much individual and group
                     training available as the budget allowed to provide basic skills to new staff and
                     enhance the capabilities of more experienced employees. As a result, virtually
                     all OIG staff received job-related training approved by their supervisors during

               54

                                                            OIG Semiannual Report    March 2008


the 12-month period, and all peer-review and audit standards for training were
met. In total, OIG staff attended 363 training events. OIG also conducted
employee orientation for all new staff and used the NSF clearance form to
process out departing employees.

Audit. To comply with the Government Auditing Standards requirement that all
government auditors complete 80 hours of continuing professional education
(CPE) every two years, all auditors identify in their Individual Development
Plans courses that will fulfill their CPE requirements as well as enhance their
professional expertise. The Office of Audit tracks training hours for each audit
staff member and approves a training plan that will ensure that all auditors
comply with the CPE requirements standards. In addition, to further strengthen
the professional expertise of staff, the Office has developed position descrip-
tions for attorney advisors. This action completes a project initiated last year
to develop position descriptions and competencies for all audit staff. The
development of the new position descriptions and competencies, the use of
Individual Development Plans to identify courses that will most effectively meet
federal auditing requirements and enhance professionalism, and the monitoring
of staff training helps ensure a competent, well-trained staff, which is essential
to high-quality work.

Improving office operations also serves to raise employee morale and
strengthen the professional expertise of OIG staff. During this performance
year, the Office of Audit implemented three new strategies to obtain feedback
on employee satisfaction. First, it initiated quarterly all-hands meetings to
improve communications among the audit teams and discuss issues of com-
mon interest. Second, as a follow-up to the 2006 employee survey, the Office
established an Employee Survey Advisory Group, which meets approximately
quarterly with the Associate Inspector General for Audit to discuss issues
of continuing concern to audit staff. Third, this year the Office instituted an
employee exit survey form to obtain ideas on improving working conditions. By
improving communications and providing regular feedback to management,
these new strategies help retain talented staff and foster professionalism.

Investigations. During this performance period, the Office of Investigation
maintained the high degree of motivation and professional competence
possessed by our well-trained staff. All Office staff prepared Individual De-
velopment Plans that identified training opportunities deemed appropriate for
professional development and career enhancement. Approximately 80 percent
of the proposed training was accomplished. All training certificates were
entered into our training system electronic records, ensuring that management
can effectively monitor staff achievement of required core competency training.

OIG staff participated in the provision of interagency training. As noted above,
we hosted the widely acclaimed NSF OIG Grant Fraud Workshop, during
which veteran investigators provided training to 130 attendees from over 30
departments and agencies. Office staff also provided interagency training at
the Federal Law Enforcement Training Academy, as well as extensive internal
training to OIG personnel.




                                                                                     55

Performance Report


                     2. 	Improve communication and collaboration within OIG.

                     •	   Facilitate information exchange and referrals among the Audit, Investiga-
                          tion, and Administrative units.
                     •	   Share information about audit, investigative, and administrative activities at
                          all-staff meetings.
                     •	   Strengthen Investigations/Audit/Administrative teams performing OIG/NSF
                          liaison duties.
                     •	   Conduct periodic meetings between audit and investigation managers to
                          discuss cross-cutting issues, mutual concerns, and cooperative efforts.
                     •	   Use	office-wide	committees	for	completion	of	various	OIG	projects	and	
                          activities.
                     •	   Conduct periodic informational meetings for administrative staff from each
                          OIG unit.
                     •	   Ensure staff participation in the development and implementation of the
                          annual OIG Performance Plan.

                     The exchange and referral of information among OIG units has improved
                     significantly since they were identified in the employee survey several years
                     ago as an area needing attention. All units have contributed to improved
                     communication and collaboration within OIG through participation in formal and
                     informal meetings, activities, and training events. Audit and Investigations staff
                     met quarterly this year to discuss issues of mutual concern and to monitor mat-
                     ters that have been referred between the offices. Many referrals are explored
                     during these meetings, and while some are found to lack substance, action is
                     taken on any deemed to be significant. Over the past 12 months, seven formal
                     referrals were made between the audit and investigation units. In addition, a
                     number of brainstorming sessions between Audit and Investigations staff have
                     been convened to generate ideas for proactive reviews, investigative priorities,
                     and audit planning.

                     At every OIG “all-hands” monthly meeting, members of the individual OIG units
                     gave presentations to the entire staff about recent audits, investigations, and
                     administrative matters of interest. Weekly senior staff meetings were used by
                     managers to discuss cross-cutting issues and promote cooperation in mutual
                     efforts, and individual managers met whenever necessary to coordinate the
                     different units’ activities. OIG established committees composed largely of
                     volunteers from all three units to handle a variety of tasks, from tabulating
                     and analyzing the employee survey results to planning the annual office
                     retreat. The OIG Administrative Manager convened regular meetings of the
                     administrative staff from each unit to disseminate information about office and
                     agency procedures, discuss common issues, and meet with representatives of
                     such NSF offices as the Human Resources and Management Division. Staff
                     members from across the OIG are also involved in developing the annual OIG
                     Performance Plan.

                     There was strong participation in the OIG liaison program, in which staff
                     members from different OIG units are paired to establish an ongoing channel of
                     communication with their designated NSF directorate, division, or office.




               56

                                                            OIG Semiannual Report   March 2008


3. E
   	 nsure effective external communications and consultation with our
stakeholders.

•	   Produce timely external reports on OIG results and issues.
•	   Provide testimony and other requested information to congressional com-
     mittees.
•	   Provide	briefings	to	the	NSB,	Congress,	OMB,	NSF,	and	others	regarding	
     OIG plans, priorities, and progress.
•	   Prepare timely OIG budget requests.
•	   Issue two OIG Newsletters by email.
•	   Revise statistical section of Semiannual Report to make it more useful.
•	   Update NSF leadership regularly on OIG activities and concern.
•	   Participate in committees and task forces, as appropriate.
•	   Collaborate with federal and international agencies to advance common
     audit, investigative, and management goals.
•	   Provide leadership and active participation in the IG community.
•	   Track and coordinate GAO audits of NSF programs.
•	   Develop guidance for the OIG/NSF liaison program.
•	   Conduct active outreach to NSF and the research community.
•	   Ensure that most liaison teams include representatives from more than one
     OIG unit.
•	   Improve presentation and content of OIG website.
•	   Track usage of OIG website.
•	   Ensure that FOIA/PA requests are processed in a timely manner.
•	   Submit article(s) for publication in appropriate journals.

During the past year, OIG prepared all reports for which it was responsible,
including two Semiannual Reports to Congress, NSF’s Financial Statement
Audit Report, the FY 2007 Federal Information Security Management Act
(FISMA) evaluation, an OIG Performance Report, and a Management Chal-
lenges Letter, all of which were issued within the timelines prescribed either by
law or by specified due dates. We also issued our FY 2008 budget submission
and prepared our FY 2009 request according to OMB and congressional
requirements.

In May 2007, the IG was appointed Vice-Chair of the Executive Council for
Integrity and Efficiency (ECIE) by the Deputy Director of the Office of Manage-
ment and Budget. The ECIE is comprised of 34 Inspectors General who are
appointed by the head of their respective agencies. In that capacity, the IG
on several occasions was called upon to deliver congressional testimony on
behalf of the IG community about proposed legislation to reform the IG Act.
The IG provided testimony to committees in both the House and the Senate,
and organized a meeting between ECIE IGs and key Senate staff charged with
drafting the legislation. Congressional staff in some instances requested draft
legislative language to address specific concerns raised by the ECIE, and NSF/
OIG staff prepared the drafts in consultation with the other members of the
ECIE. OIG staff members were also called upon to help the IG manage the
affairs and meetings of the council.

Our staff and the independent financial statement auditor under contract to OIG
gave numerous briefings to the Audit and Oversight Committee of the National
Science Board. Several presentations focused on the status of NSF’s financial

                                                                                    57

Performance Report


                     statement audit, the significance of its findings, and the corrective actions taken
                     by the agency in response to previous financial audits. OIG staff also briefed
                     the committee on the office’s proposed budget submission, the annual audit
                     plan, and significant investigations and audits. The IG met with the NSF OMB
                     examiner, congressional staff, and other organizations about agency issues as
                     needed. The IG and Deputy IG conducted briefings for the NSF Director and
                     Deputy Director at regular intervals to apprise them of OIG’s activities, discuss
                     opportunities to improve agency operations, and inform them of OIG matters
                     likely to come up in future meetings of the National Science Board.

                     In between issuances of our Semiannual Report to Congress, we released two
                     electronic newsletters to inform NSF stakeholders on a timely basis of OIG’s
                     significant audits and investigations. The planned revisions to the statistical
                     section of the Semiannual Report were not accomplished this year, as it will
                     take more time to adjust our computer system to a new format. The OIG
                     website experienced heavy usage, with over 245,000 hits during the past 12
                     months.

                     OIG was active in organizing international meetings to promote a better
                     understanding of the different countries’ approaches to oversight of science
                     and technology funding, discuss areas of common concern, and identify best
                     practices that could be applied more widely. In June 2007 the IG co-hosted
                     an International Workshop on Accountability Challenges with the European
                     Science Foundation in Strasbourg France. The agenda focused on evaluating
                     and managing risks, misconduct in research allegations, and general auditing
                     and internal control issues.

                     In September 2007, the IG and the Associate Inspector General for Investiga-
                     tion attended a World Conference on Research Integrity in Lisbon, Portugal.
                     The purpose of the conference was to further world dialogue on the topic
                     of research misconduct, as regulations and practices vary widely from one
                     country to another. The event was closely linked to the OECD Global Science
                     Forum (GSF) and attracted many of the same participants. Then in December
                     2007, the IG hosted a meeting of GSF at the National Science Foundation.
                     Ongoing efforts to develop common principles for investigation and the resolu-
                     tion of research misconduct allegations with international implications were the
                     primary focus of these meetings.

                     OIG staff made presentations to, or held discussions with delegations from the
                     European Science Foundation, the U.S.-Israeli Bi-National Science Foundation,
                     the Irish Health Research Board, the Korean Board of Audit and Inspection,
                     and the Chinese Ministry of Science and Technology, to provide their expert
                     opinions and personal insights concerning the oversight of scientific research
                     and science funding.

                     OIG staff continued to actively participate in NSF committees. For example,
                     Audit staff members were active in the Audit Coordinating Committee, which
                     resolves coordination issues with NSF associated with the financial statement
                     audit. The Senior Policy and Operations Advisor serves as an executive
                     secretary to the Audit and Oversight Committee of the National Science Board.
                     The Deputy IG participated in quarterly Division Director retreats and served
                     as the OIG liaison for the agency’s Office of Equal Opportunity. During the

               58

                                                             OIG Semiannual Report    March 2008


past year we continued to advance our goal of enhancing communications with
agency staff by presenting at NSF-organized events. OIG staff gave presenta-
tions at each of the NSF Program Manager’s Seminars, which provide new
NSF program managers with detailed information about the Foundation and its
activities. OIG staff initiated 55 outreach events and participated in numerous
other meetings and interactions with their NSF colleagues. We created a
Liaison Guide to assist new personnel in this important role. Finally, we posted
additional information and presentations to our website to enhance its value to
our external audience.

OIG also continues to actively participate in committees, projects, and events
supported by the IG community. Auditors provided leadership to interagency
groups established to advance common audit goals. For example, the As-
sociate Inspector General for Audit is the co-chair of the Financial Statement
Committee of the Federal Audit Executive Council, audit staff are members of
the President’s Council on Integrity and Efficiency committee working with the
Government Accountability Office (GAO) to make substantial revisions to the
government-wide Financial Audit Manual, and have actively participated in the
government-wide Single Audit Roundtable and the Financial Statement Audit
Conference. OIG auditors also met monthly during this performance year with
auditors from other federal OIGs in the Financial Statement Audit Network to
discuss proposed accounting standards and requirements for federal financial
statement audits, participated in IG committees working on human resource
and training issues, and coordinated and tracked 12 GAO audits related to NSF.

Investigations staff have provided leadership within the IG community through
their active participation with the National Procurement Fraud Task Force
Grant Fraud Subcommittee, the Inspector General Academy, and the Federal
Law Enforcement Training Center. Investigators have provided over 20
presentations to the research community, including presentations to universi-
ties, professional associations, and groups of NSF grant recipients. We have
maintained effective communications with the public through our prompt
responses to requests under the Freedom of Information Act, during which we
have met 100 percent of our processing milestones. Finally, a member of our
staff published an article in the Journal of Public Inquiry describing the positive
impact compliance programs can have on research institutions and
organizations.




                                                                                      59

Appendix


                                Reporting Requirements
	

           Under the Inspector General Act, we report to the Congress every six months
           on the following activities:

           Reports issued, significant problems identified, the value of questioned costs
           and recommendations that funds be put to better use, and NSF’s decisions in
           response (or, if none, an explanation of why and a desired timetable for such
           decisions). (See pp. 5, 11, 35)

           Matters referred to prosecutors, and the resulting prosecutions and convictions.
           (See pp. 27, 44)

           Revisions to significant management decisions on previously reported
           recommendations, and significant recommendations for which NSF has not
           completed its response. (See pp. 22, 43)

           Legislation and regulations that may affect the efficiency or integrity of NSF’s
           programs. (See p. 7)

           OIG disagreement with any significant decision by NSF management. (None)

           Any matter in which the agency unreasonably refused to provide us with
           information or assistance. (None)




     60

                                                 OIG Semiannual Report   March 2008


                        ACRONYMS


AMISR    Advanced Modular Incoherent Scatter Radar
AOR      Authorized Organizational Representative
CAS      Cost Accounting Standards
CFO      Chief Financial Officer
CO       Contracting Officer
COTR     Contracting Officer’s Technical Representative
COI      Conflict of Interest
COV      Committee of Visitors
DACS     Division of Acquisition and Cost Support
DCAA     Defense Contract Audit Agency
DD       Deputy Director
DGA      Division of Grants and Agreements
DIAS     Division of Institution and Award Support
DoD      Department of Defense
DoJ      Department of Justice
ECIE     Executive Council of Integrity and Efficiency
EPSCoR   Experimental Program to Stimulate Competitive Research
FFRDC    Federally Funded Research and Development Centers
FISMA    Federal Information Security Management Act
GAO      Government Accountability Office
GPRA     Government Performance and Results Act
GSF      Global Science Forum
HHS      Department of Health and Human Services
IG       Inspector General
MIRWG    Misconduct in Research Working Group
MREFC    Major Research Equipment and Facilities Construction
NSB      National Science Board
NSF      National Science Foundation
OECD     Organization for Economic Co-operation and Development
OIG      Office of Inspector General
OMB      Office of Management and Budget
OPP      Office of Polar Programs
P Card   Purchase Card
PCIE     President’s Council on Integrity and Efficiency
PI       Principal Investigator
PFCRA    Program Fraud Civil Remedies Act
QCR      Quality Control Review
SBIR     Small Business Innovation Research
STC      Science and Technology Centers
STEM     Science Technology Education and Mathematics
USAP     United States Antarctic Program




                                                                         61

Appendix




     62

 National Science Foundation
  Office of Inspector General
 4201 Wilson Blvd., Suite 1135
                                      National      Office of
      Arlington, VA 22230             Science      Inspector
          703.292.7100
                                      Foundation     General




    HTTP://www.nsf.gov/oig
	
To report fraud, waste, or abuse,
	
 call our hotline 1.800.428.2189
	




                                                          Semiannual
                                                            Report to
                                                            Congress
                                                                March 2008
